<html>
<title> - CLIMATE CHANGE: THE NEED TO ACT NOW</title>
<body><pre>[Senate Hearing 113-771]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-771

                  CLIMATE CHANGE: THE NEED TO ACT NOW

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 18, 2014

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












       Available via the World Wide Web: http://www.gpo.gov/fdsys

                                                       S. Hrg. 113-771

                  CLIMATE CHANGE: THE NEED TO ACT NOW

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________
                              
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-668 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
THOMAS CARPER, Delaware              DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

               SHELDON WHITEHOUSE, Rhode Island, Chairman
THOMAS R. CARPER, Delaware           JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
EDWARD J. MARKEY, Massachusetts      JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana(ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 18, 2014
                           OPENING STATEMENTS

Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    12
Boxer, Hon. Barbara, U.S. Senator from the State of California...    13
Barrasso, Hon. John U.S. Senator from the State of Wyoming.......    18
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    20
Inhofe, Hon. James U.S. Senator from the State of Oklahoma.......    21
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...    37
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    39
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    40
Sessions Hon. Jeff, U.S. Senator from the state of Alabama.......    41
Booker, Hon. Corey, U.S. Senator from the State of New Jersey....    43

                               WITNESSES

Ruckelshaus, William D., Strategic Advisor, Madrona Venture Group 
  and Former Administrator, U.S. Environmental Protection Agency.    47
    Prepared statement...........................................    50
    Response to an additional question from Senator Whitehouse...    53
    Response to an additional question from Senator Sessions.....    53
    Responses to additional questions from Senator Vitter........    53
Whitman, Christine Todd, President, The Whitman Strategy Group; 
  Former Governor, State of New Jersey; and Former Administrator, 
  U.S. Environmental Protection Agency...........................    88
    Prepared statement...........................................    90
    Response to an additional question from Senator Whitehouse...    97
    Responses to additional questions from:
        Senator Booker...........................................    97
        Senator Vitter...........................................    98
        Senator Sessions.........................................   109
Reilly, William K., Senior Advisor, TPG Capital; Chairman 
  Emeritus, Climateworks Foundation; and Former Administrator, 
  U.S. Environmental Protection Agency...........................   110
    Prepared statement...........................................   112
    Response to an additional question from Senator Whitehouse...   116
    Responses to additional questions from Senator Vitter........   116
Thomas, Lee M., Former Administrator, U.S. Environmental 
  Protection Agency..............................................   129
    Prepared statement...........................................   131
Botkin, Daniel, Professor Emeritus of Biology, University of 
  California, Santa Barbara......................................   133
    Prepared statement...........................................   136
    Responses to additional questions from:
        Senator Vitter...........................................   168
        Senator Sessions.........................................   169
Strange, Hon. Luther, Attorney General, State of Alabama.........   173
    Prepared statement...........................................   175
    Response to an additional question from Senator Vitter.......   183
    Responses to additional questions from Senator Sessions......   184
Joseph, Mason, R., Hermann Moyse, Jr./Louisiana Bankers 
  Association Endowed Professor of Banking, Louisiana State 
  University and Senior Fellow, The Wharton School...............   186
    Prepared statement...........................................   188
    Responses to additional questions from:
        Senator Whitehouse.......................................   207
        Senator Vitter...........................................   209
        Senator Sessions.........................................   211

                          ADDITIONAL MATERIALS

William J. Haun; The Clean Air Act as an Obstacle to the 
  Environmental Protection Agency's Anticipated Attempt to 
  Regulate Greenhuse Gas Emissions from Existing Power Plants....   252
Paul C. Knappenberger and Patrick J. Michaels; Global Science 
  Report.........................................................   268
Thinkprogress; The Progress Report, Here Come the Kochs..........   284
Politico Kochs Launch New Super PAC for Midterm Fight............   286
Letter; Patrick Morrisey, Attorney General Re: EPA's Asserted 
  Authority Under Section 11(d) of the Clean Air Act to Regulate 
  CO<INF>2</INF> Emissions from Existing Coal-Fired Power Plants.   289
National Journal; The New Energy Paradigm, Coal Country's Decline 
  Has a Long History.............................................   298
Letter; Nine Governors to President Barack Obama.................   300

 
                  CLIMATE CHANGE: THE NEED TO ACT NOW

                              ----------                              


                        Wednesday, June 18, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Sheldon Whitehouse 
(chairman of the subcommittee) presiding.
    Present: Senators Whitehouse, Cardin, Sanders, Markey, 
Gillibrand, Booker, Sessions, Barrasso, Crapo, Boozman, Inhofe 
and Vitter.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The hearing of the EPW Subcommittee on 
Clean Air and Nuclear Safety will come to order.
    We will have opening statements from the members limited to 
5 minutes each followed by introduction and swearing of the 
witnesses, followed by the testimony of the witnesses. I know 
that Ranking Member Sessions will be joining us later. I would 
like to thank him and members of the subcommittee and our 
witnesses for being here today to discuss the need to act on 
carbon pollution and climate change.
    We are privileged to have before our subcommittee four 
former Administrators of the Environmental Protection Agency. 
All of them solved contentious environmental problems during 
their tenures working for Republican presidents. Now they are 
banding together to bring attention to the biggest 
environmental threat of all, climate change.
    In a New York Times op-ed written last year, that I would 
like to enter into the record, without objection, these former 
Administrators stated, ``We have a message that transcends 
political affiliation. The United States must move now on 
substantive steps to curb climate change at home and 
internationally.''
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. They are four in a large choir of 
voices singing the same tune on this issue. Major corporations 
are concerned about climate change and have already started 
reducing their own emissions. The BICEP climate declaration is 
signed by more than 750 companies, including nameplate American 
brands like eBay, Gap, Levi, L'Oreal, Mars, Nike and Starbucks.
    The declaration states, in part, ``We cannot risk our kids' 
futures on the false hope that the vast majority of scientists 
are wrong. Leading is what we have always done and by working 
together, regardless of politics, we will do it again.'' I will 
enter a copy


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    
    Senator Whitehouse. National defense leaders have sounded 
the alarm that climate change is a serious national security 
threat. There are also scientists, outdoorsmen, faith leaders, 
State and local officials and countless others demanding 
action.
    I understand that many of my colleagues are from States 
that depend on fossil fuels and have fossil fuel economies. 
They want to protect jobs in those industries. I get that and 
it is proper, but I also ask that they look at the other side 
of the ledger, the side of the ledger that affects States like 
Rhode Island.
    Our side of the ledger includes costs like damage to 
coastal homes, infrastructure and businesses from rising seas, 
erosion and storm surge, hospitalizations and missed school and 
work days for the families of kids suffering from asthma 
attacks triggered by smog, forests dying from beetle 
infestations and destroyed by unprecedented wildfire seasons, 
farms ravaged by worsened drought and flooding. Our side of the 
ledger counts too. Do not pretend we do not exist.
    Recently, the EPA used its Clean Air authority as an 
established by Congress and affirmed by the Supreme Court to 
propose carbon pollution standards for the Country's existing 
power plants. As proposed, the rule will reduce carbon 
pollution while providing as much as $93 billion in public 
benefit per year by 2030.
    As you can see from this chart, a recent Washington Post, 
ABC News poll, found that 70 percent of the public supports 
Federal standards to limit greenhouse gas pollution. I am not 
sure if it is clear but the rightmost bar is Republicans who 
overwhelmingly support power plant regulations.
    Just this morning, the Wall Street Journal and an NBC news 
released polling data saying two-thirds of Americans support 
President Obama's new climate rule and more than half said the 
U.S. should address global warming even if it means higher 
electric bills.
    The effects of climate change are apparent across our 
Country. At the Newport tide gauge, sea level is up almost 10 
inches since the 1930's. What do you think will happen when a 
hurricane as powerful as the devastating hurricane of 1938 
rolls into the shores of Rhode Island on seas that are 10 
inches higher?
    Louisiana is losing a football field of wetlands every hour 
due in part to sea level rise. According to measurements at 
NOAA's Dolphin Island Station, sea level rise is up five inches 
along the Alabama coast between 1966 and 2006. That is five 
more inches of ocean to batter Mobile Bay during storms.
    Then there is Florida, ground zero for climate change. In 
October 2012, streets and homes in Hendricks Isle, Florida were 
flooded but not because of a storm. It all happened on a 
beautiful, sunny day. It was just extreme high tides pushed 
into the town by sea level rise. Climate change is a challenge 
we have a solemn duty to solve.
    Again, I thank the witnesses for joining us. The committee 
has much to learn from the collective experience of the former 
Administrators as we address this American challenge.
    [The prepared statement of Senator Whitehouse follows:]

      Prepared Statement of Hon. Sheldon Whitehouse, U.S. Senator 
                     from the State of Rhode Island

    I'd like to thank Ranking Member Sessions, members of the 
subcommittee, and our witnesses for being here today to discuss 
the need to act on climate change.
    We are privileged to have before our subcommittee today 
four former administrators of the Environmental Protection 
Agency.
    All of them solved contentious environmental problems 
during their tenures working for Republican presidents. Now 
they're banding together to bring attention to the biggest 
environmental threat of all--climate change. In a New York 
Times op-ed written last year that I'd like to enter into the 
record, these former administrators stated, ``[W]e have a 
message that transcends political affiliation: the United 
States must move now on substantive steps to curb climate 
change, at home and internationally.''
    They are four in a large choir of voices singing the same 
tune on this issue. Major corporations, are concerned about 
climate change and have already started reducing their own 
emissions. The BICEP Climate Declaration is signed by more than 
750 companies, including nameplate American corporations like 
eBay, Gap, Levi's, L'Oreal, Mars, Nike, and Starbucks. It 
states, in part, ``We cannot risk our kids' futures on the 
false hope that the vast majority of scientists are wrong--
Leading is what we've always done. And by working together, 
regardless of politics, we'll do it again.'' I will enter a 
copy of the declaration into the record. The defense community 
has sounded the alarm that climate change is a serious national 
security threat. There are also scientists, outdoorsmen, faith 
leaders, State and local officials, and countless others 
demanding action.
    I understand that many of my colleagues are from states 
that depend on fossil fuels, and they want to protect jobs in 
those industries. But I also ask that they look at the side of 
the ledger that affects states like Rhode Island. Our side of 
the ledger includes costs like damage to coastal homes, 
infrastructure, and businesses from rising seas, erosion, and 
storm surge; hospitalizations and missed school and work days 
for the families of kids suffering from asthma attacks 
triggered by smog; forests dying from beetle infestations and 
destroyed by unprecedented wildfire seasons; farms ravaged by 
worsened drought and flooding. Our side of the ledger counts, 
too.
    Recently, the EPA used its Clean Air Act authority, as 
established by Congress and affirmed by the Supreme Court, to 
propose carbon pollution standards for the country's existing 
power plants. As proposed, the rule will reduce carbon 
pollution while providing as much at $93 billion in public 
health and climate benefits per year by 2030. As you can see 
from this chart, a recent Washington Post-ABC News poll, found 
that 70 percent of the public supports Federal standards to 
limit greenhouse gas pollution.
    Chart
    And just this morning, the Wall Street Journal and NBC-News 
released polling data saying two-thirds of Americans support 
President Obama's new climate rule and more than half say the 
U.S. should address global warming even if it means higher 
electricity bills.
    The effects of climate change are apparent across our 
country. At the Newport tide gauge, sea level is up almost ten 
inches since the 1930's. What do you think will happen when a 
hurricane as powerful as the devastating hurricane of 1938 
rolls into the shores of Rhode Island on seas that are ten 
inches higher? [Hurricane 1938 photo]. Louisiana is losing a 
football field of wetlands every hour due in part to sea level 
rise. According to measurements at NOAA's Dauphin Island 
station, sea level has risen approximately five inches along 
the Alabama coast between 1966 and 2006. In addition to eroding 
the coastline, that's five more inches of ocean that batter 
Mobile Bay during storms. And then there is Florida, ground 
zero for climate change. In October 2012, streets and homes in 
Hendrick's Isle, FL, were flooded--but not because of a storm. 
It all happened on a beautiful sunny day. It was just extreme 
high tides, pushed into the town by sea-level rise.
    Climate change is a challenge that can and must be solved. 
Again I thank the witnesses for joining us. The committee has 
much to learn from the collective experience of the four former 
administrators as we address this urgent threat.
    Senator Whitehouse. I went over by a minute so Senator 
Vitter will have an extra minute.
    Senator Vitter. Thank you, Mr. Chairman.
    Before I start, if I could make a unanimous consent 
request, we have at least eight empty chairs in the room. There 
are plenty of folks outside, many of whom have traveled a long 
distance to be here. We also have standing room, so I would 
make the unanimous consent request that at least 10 or 12 more 
folks be let in for this important discussion.
    Senator Whitehouse. I would be happy to allow folks to be 
let into the extent that there are empty chairs that are not 
reserved for anyone. We will let the committee staff sort that 
out.
    Senator Vitter. Let me clarify.
    Senator Whitehouse. One of the people who is not here is 
one of your witnesses.
    Senator Vitter. We will keep the seat for him.
    Senator Whitehouse. I assume that he has staff with him, so 
I want to be polite to your witness.
    Senator Vitter. I think that is permission for about 10 
other folks to come in. Thank you.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    I look forward to hearing from all of our witnesses here 
today, certainly including Dr. Daniel Botkin, Dr. Joseph Mason 
and Hon. Luther Strange.
    The science and economic consequences and legal 
underpinnings of the EPA's actions to advance the President's 
climate action plan are topics the Administration does not want 
to discuss in detail.
    However, their unilateral actions will increase America's 
electricity bills, decrease family disposable income and result 
in real job losses for little or no measurable impact on our 
ever changing climate.
    On June 2, EPA proposed an unprecedented rule targeting our 
Country's electricity system. Using a provision in the Clean 
Air Act that has only been used five times in 40 years, EPA 
requires States to set performance standards that apply to the 
entire electricity system, mandating renewable energy and 
rationing energy on which families and businesses rely.
    EPA argues that this rule is a gift to States that provides 
States with flexibility. In reality, that is a complete red 
herring. States are forced into achieving questionable emission 
reduction targets from a limited menu of economically damaging 
and legally questionable options.
    States are left little choice but to join or create 
regional cap and trade programs which achieves the 
Administration's goal of making sure we all pay more for 
energy.
    Electricity prices right now in the Regional Greenhouse Gas 
Initiative States and California are 45 percent higher than in 
my home State of Louisiana. Fifty-six percent of Louisiana 
families already spend at that lower rate an average of 21 
percent of their after tax income on energy. They simply cannot 
afford the higher electricity bills that will inevitably result 
from this rule.
    The rule is billed as climate change mitigation with 
America leading the way. Unfortunately, anyone who has actually 
read the 645 page rule finds it has no material effect on 
global average temperature or sea level rise. The major of the 
benefits touted by EPA come from double accounting reductions 
of other emissions already regulated through other measures.
    While this Administration expects other governments to 
consider the global consequences of their greenhouse emissions 
when regulating, there is absolutely no reason to presume the 
world's biggest emitters will follow us down this path of 
economic destruction.
    In fact, much of the world is changing course. Our friends 
in Europe have adopted similar carbon constraining frameworks 
several years ago, filled with government mandates and cronyism 
and were rewarded with harsh economic pain.
    In an effort to recover, Germany is lifting its ban on 
fracking and increasing the use of coal. Spain is abandoning 
the handouts that supported its renewable energy program. 
Instead of embracing our domestic energy resources and the 
bright economic light they provide in our otherwise poor 
economy, this climate action plan moves us beyond coal and 
beyond natural gas with serious negative consequences.
    Today, the American electricity system provides affordable, 
reliable power, 7 days a week, 365 days a year to families, 
schools, hospitals and businesses. The existing source rule as 
proposed will increase costs to all consumers significantly. As 
always, that especially hits the poor, the elderly and those on 
fixed incomes for no measurable effect on climate change.
    In reality, this rule is essentially a Federal takeover of 
the American electricity system. Is everyone here really 
comfortable with the EPA being fully, completely responsible 
for all of those details of our electricity system?
    The only thing missing from this strategy is an empty 
promise from the President. If you like your affordable energy, 
you can keep your affordable energy. We like it, we want to 
keep it. This rule will destroy it.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you, Senator Vitter.
    I will turn now to the wonderful Chairman of the 
Environment and Public Works Committee, who I am very honored 
to have here today, a great leader in this effort, Barbara 
Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you, Senator.
    Thanks to your work, we are joined by an extraordinary 
panel. I thank all of you for being here.
    We are looking at four former Administrators of the EPA--
this is really historic--who were appointed by Republican 
Presidents. The Honorable William Ruckelshaus served as the 
first EPA Administrator under President Nixon and then again 
under President Reagan. The Honorable Lee Thomas served under 
President Reagan. The Honorable William Reilly served under 
President George H.W. Bush. The Honorable Christine Todd 
Whitman served under President George W. Bush.
    I am proud of our landmark environmental laws we created 
with an overwhelming bipartisan consensus. It saddens me more 
than I can ever express in words that protecting the 
environment at this Federal level has become an out and out 
war, a partisan issue. It should not be that way; it wasn't 
when I started.
    In 1970, the Clean Air Act passed the Senate by a vote of 
73 to 0, passed by the House by a vote of 375 to 1, was signed 
by President Nixon. In 1990, revisions to the Clean Air Act 
passed the Senate by a vote of 89 to 11, by 401 to 21 in the 
House and was signed into law by President George H.W. Bush.
    In the last Congress, the Republicans sent us over 90 anti-
clean air riders. They are planning to do it now in the back 
rooms. They are working on plans to overturn President Obama's 
action plan to cut back on carbon pollution.
    We all should know that we need to take action to reduce 
harmful carbon pollution--97 percent of the scientists agree it 
is leading to dangerous climate change that threatens our 
families. To say we cannot have an opinion, as some of my 
Republican colleagues have done because they are not 
scientists--you heard them say it.
    Speaker Boehner said it. He said, I am not a scientist. I 
can't say whether there is climate change. All the more reason 
to listen to a scientist if you are not a scientist.
    We all have health problems in our families and right here 
in the Senate. When doctors tell us we need a heart bypass or 
cancer treatment, we listen. We don't just say, I am not a 
doctor, I am not going to listen.
    The four former EPA Administrators with us today will 
testify about the need to control carbon pollution to avoid the 
most calamitous impacts of climate change such as rising sea 
levels, dangerous heat waves and economic disruption.
    The American people certainly understand this threat. You 
saw the poll. It is extraordinary. Democrats, Republicans and 
independents support the President's plan.
    As someone with a 95 percent labor record, I want to talk a 
minute about jobs. I want to welcome the people here who work 
with their hands because I respect the work that you do, but I 
want to say two things now.
    One, I want to put in the record the number of jobs in the 
coal industry under George W. Bush, the number of jobs in the 
coal industry under President Obama and there are more jobs 
under President Obama. There is a lot of talk around here but a 
lot of times we don't look at the facts, so I will put this in 
the record with your permission.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Boxer. I also want to say that I lived through all 
this fear mongering about jobs. Between 1970 and 2011, in 1970, 
we passed the Clean Air Act amendments. People were shouting, 
you are a job killer, you are a job killer. What happened? Air 
pollution dropped 68 percent saving our families' health while 
the U.S. gross domestic product grew 212 percent. Private 
sector jobs increased by 88 percent during that same period.
    These scare tactics have been tried before and they are 
just not real. When you look in my State and see the number of 
jobs that have been created as we moved to clean energy, it is 
very, very encouraging.
    Power plants account for 40 percent of all carbon pollution 
released into the air. Right now there are no limits to the 
amount of pollution that can be released, carbon pollution, 
from those power plants.
    This is what the President's plan will do. It will avoid up 
to 6,600 premature deaths, 150,000 asthma attacks, 3,300 heart 
attacks, 2,800 hospital admissions and 490,000 missed days at 
school and work.
    I ask you, colleagues, when you go home, you speak to kids 
all the time. Ask them how many have asthma or know someone 
with asthma. Half the kids will raise their hands. Why would 
you attack a plan that will avoid so many heart attacks, asthma 
attacks, 150,000 asthma attacks?
    It is in America's DNA to turn a problem into an 
opportunity. Let us do it because I will tell you like many 
other jobs, you cannot outsource putting a solar roof on a 
home, you cannot outsource putting a wind turbine in place.
    I want to thank Senator Whitehouse for his extraordinary 
leadership.
    Senator Whitehouse. I am now pleased to recognize my friend 
from Wyoming, the distinguished Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    As you know, I am from Wyoming, the most beautiful State in 
the Nation and I want to keep it that way. I believe we have 
and can have a healthy environment and a health economy at the 
same time. We need to do that by striking the right balance 
between the two.
    I believe it is irresponsible to impose costly regulations 
without having real environmental benefits. The cost of these 
climate change regulations on families and on communities is 
very real. The benefits are ill defined. They are unknown or 
are simply negligible.
    President Obama's new climate regulations, which are at the 
heart of his climate action plan, will harm our fragile 
American economy, thousands of people will lose their jobs, it 
will raise electricity prices threaten electricity reliability 
and undermine America's global competitiveness.
    Higher energy costs will hurt low income families and fixed 
income seniors the most, leaving them with less to spend on 
food, housing, health care and other basic necessities. The 
thousands of unemployed and their families will suffer negative 
health impacts as a result of chronic unemployment. Electricity 
prices and hospital visits will necessarily sky rocket.
    Is it worth subjecting many in our Country to a 
dramatically lower quality of life and health for this plan to 
essentially nationalize our electricity grid? Based on the 
facts, I would say absolutely not.
    We have been told by the U.N. and the EPA that climate 
change will cause serious impacts across the globe. To address 
this, the President put forward his Climate Action Plan. This 
plan is twofold: first, to have the U.S. nationalize our 
electricity grid just as he has tried to nationalize our 
healthcare system.
    Nationalizing our electricity grid means taking 
decisionmaking about electricity policy out of the hands of the 
States, out of the hands of the communities and putting it in 
the hands of Washington bureaucrats.
    This will occur as EPA rejects in whole or in part State 
energy plans for reducing carbon emissions and imposing their 
own Federal plans under the EPA's proposed new regulations for 
existing coal-fired power plants. This will happen at a cost of 
thousands of jobs and the public's health and well being.
    The second part of the President's plan is to have us 
believe that he can arrive in Paris in 2015 at the U.N. Climate 
Change Conference and convince the world to follow his lead. 
The whole plan hinges on President Obama's foreign policy 
prowess. His foreign policy record is a series of empty 
threats, pivots, resets, missed calculations and lead from 
behind failures in places like Syria, Russia, Iran, Libya and 
now Iraq.
    After all those missteps, the President expects Americans 
to believe that in 2015, he can draw a red line along the 
Champs-Elyseesys and demand that China and India stop burning 
fossil fuels. Even if the President was able to reach an 
agreement like the Kyoto treaty of the 1990's, it would still 
have to be ratified by the Senate. The treaty in the 1990's 
overwhelmingly failed in the Senate.
    If the President cannot deliver in Paris and subsequently 
in the Senate, we will be left with his domestic climate action 
plan.
    Americans have been told by the EPA and the U.N. that 
climate change will cause serious impacts to the planet years 
into the future. The President's domestic climate action plan 
they champion cannot, on its own, prevent these impacts from 
happening.
    According to our own U.S. Secretary of State, John Kerry, 
in a column he wrote in the Financial Times on June 3, he 
stated, ``Even as we strive to do better, we recognize that no 
country can solve this problem alone.'' Even if the U.S. 
somehow eliminated all our domestic greenhouse gas emissions, 
Secretary Kerry says, ``It would not be enough. The rest of the 
world is spewing too much carbon pollution.''
    That means that the President's climate action plan, on its 
own, doesn't reduce global temperatures or prevent any of the 
serious impacts predicted by the U.N. or the EPA. It can't even 
make a dent, all the while seniors on fixed incomes, families 
and children suffer high electricity bills, joblessness and 
poor health.
    This is all pain and little gain with what the President is 
proposing.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you, Senator Barrasso.
    Thanks to the kindness of Senator Cardin, Senator Sanders 
will be recognized.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman. Thank 
you for your tireless efforts on this issue and for organizing 
this very important hearing today.
    I say this as somebody who may have the highest pro-labor 
voting record in the U.S. Congress, my delight in hearing some 
of my friends on the other side express their interest about 
the needs of low income people, working people and senior 
citizens.
    I would remind everyone that many of these same people are 
folks who have fought to cut social security, Medicare, 
Medicaid, opposed raising the minimum wage, opposed the kind of 
jobs program we need to rebuild our crumbling infrastructure 
and put millions of people back work and opposed lowering 
college debts for many struggling students in this Country.
    The issue we are dealing with today is of enormous 
importance. It really comes down to whether as a Nation, as the 
most powerful nation on earth, we are going to listen to the 
science. When we build weapons systems that cost billions of 
dollars, we take it for granted that the engineers know what 
they are talking about. When we invest in cancer research 
through the National Institutes of Health, we assume and 
believe that the doctors and scientists know what they are 
talking about.
    Right now, we are in a very strange moment in American 
history. That is why traditionally there are differences of 
opinion on labor issues, on health care issues and that is what 
happens year after year. We are now in a very strange moment 
and that is we have virtually an entire political party that is 
rejecting basic science and the science is no longer in doubt.
    Some 97 percent of scientists who have written in peer-
reviewed journals say the following. Climate change is real, it 
is significantly caused by human activity, and it is already 
causing devastating problems in our Country and throughout the 
world.
    Yesterday, the newspapers reported that in Arizona, they 
are worrying about how Phoenix and other cities are going to 
get water because of the terrible drought we have seen in the 
southwest. Australia is burning up. We have had extreme weather 
disturbances, major storms that have cost us billions and 
billions of dollars. Sea levels are rising which may flood 
among other cities, the great city of New Orleans, New York 
City and Boston.
    For some strange reason, while we agree on science in 
almost every area of our life, in this area we have a party 
that says, no, climate change is not real; it is maybe a hoax, 
something concocted by Al Gore or Hollywood.
    I am very proud today and want to thank the panelists who 
are here very much, especially the former EPA Administrators 
who were appointed by Republicans. I thank you so much for 
being here because while we can disagree on a million issues, 
we should not disagree on what scientists tell us. We should 
not disagree when scientists tell us that we have a window of 
opportunity, 10 or 15 years, to turn this thing around, to lead 
the world.
    John Kerry said the rest of the world has to go forward. He 
is right but somebody has got to lead. This Country leads. By 
the way, when we lead in transforming our energy system away 
from fossil fuel, we create millions of jobs through 
weatherization, through energy efficiency, through wind and 
solar, geothermal and other technologies that are out there.
    I very much want to thank the former Republican 
Administrators for coming to Washington to say what I think is 
true nationally, that intelligent Republicans all over this 
Country--I am not a Republican, my views are very different--
but on this issue we can at least respect science, we can 
respect the planet, we can transform our energy system and most 
importantly, maybe at the end of the day, we have a moral 
responsibility for our children and grandchildren so that 30 
years from now, they do not look us in the eye and say, all the 
scientists told you what was going on, why didn't you do 
something. We have to do something.
    I thank you all very much for being here this morning.
    Senator Whitehouse. Thank you, Senator Sanders.
    Senator Inhofe.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. Thank you for 
holding the hearing.
    While I think it is important for us to conduct oversight 
over the ESPS rule, we need to be hearing from Gina McCarthy 
and Janet McCabe and from those who would be affected by the 
rule which includes the utilities, the consumers, the 
manufacturers, the miners and others.
    We need the record to reflect the whole picture of this 
rule. We need to hear from the experts on electricity 
reliability like FERC and NERC.
    During his time in office, President Obama has pursued a 
systematic strategy for using the government to take over major 
sectors of the economy. He started with Obamacare, 
nationalizing the healthcare system. He went on to Dodd-Frank, 
making bank bailouts a permanent fixture in American society.
    Now we have the first round of global warming regulations 
which would nationalize the electricity market and force 
Americans to live out the President's green dream. We don't 
have to look any further to see Obama's marvel in Germany to 
see where the path leads.
    I think Senator Vitter covered this pretty well. The fact 
that they are now trying to get out from under the mess they 
are in. Germany's cost per kilowatt hour has doubled and is now 
triple what it is here in the United States, all because of the 
course the President has tried to put us on.
    The Administration may claim that this is unlikely because 
the United States has an abundance of cheap, domestic sources 
of natural gas. While that is true, I am not naive enough to 
believe that the Administration will stop with coal. In fact, 
Energy Secretary Ernest Monis recently said that natural gas 
power plants will soon need carbon capture sequestration 
technology and saw it on them to comply with global warming 
rules. That would put them out of business.
    It is not just coal. It is oil, gas, coal and even nuclear 
that is under attack. Ultimately, President Obama's electricity 
takeover will force Americans to use less and less electricity 
at higher and higher prices. The motive is clear.
    I am going to ask that this be made a part of the record. 
Tom Steyer is a California billionaire who has promised to pump 
$100 million into the elections to help Senate Democrats get 
elected if they make global warming a national issue.
    This isn't me saying this; this is Tom Steyer. I don't have 
$100 million to give away, he does and this means enough to 
him. I do ask this be made a part of the record.
    Senator Sanders. Reserving the right to object.
    Senator Inhofe. That is fine.
    Senator Sanders. I would also like to enter into the record 
the fact that the Koch Brothers representing the fossil fuel 
industry will spend hundreds of millions of dollars on this 
campaign trying to defeat Democrats.
    Senator Inhofe. Do you object to having this a part of the 
record?
    Senator Sanders. So long as mine is able to be entered, I 
have no objection.
    Senator Inhofe. Sure, you can enter it. That is fine.
    Senator Sanders. Thank you.
    Senator Inhofe. By the way, I have the greatest respect for 
Senator Sanders. We are totally different on our philosophies, 
I understand that, but we have respect for each other. We have 
had honest debates and this is just one of them.
    I think it is very important that we keep in mind there is 
a guy out there.
    Senator Whitehouse. The timer will go back on and both 
documents will be admitted into the record.
    [The referenced information follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Senator Inhofe. Very good. Thank you.
    We have had the global warming parties on the Senate floor 
and all of that is going on but the reason guys like Tom Steyer 
have to go to such lengths to make the political issue is 
because the American people don't want anything to do with it.
    He talks about polls. Poll after poll show more and more 
Americans learn about the impact of greenhouse gas regulations, 
the more effect it will have on the economy, the less they 
care. The Gallup poll that just came out used to list global 
warming as No. 1 and two. You remember that Christine back when 
you had that job. Now it is number 14 out of 15 of the major 
concerns. The people have caught on to this.
    The most important issue is the economy. We know that the 
previous version of cap and trade are estimated to cost between 
$300 billion to $400 billion a year which amounts to about 
$3,000 for every family that files a Federal tax return. Then 
we have to keep in mind even if this was right, even if they 
were able to do this and pass this, it would not reduce, as one 
of the members said a moment ago, the amount of greenhouse gas 
emissions.
    Lisa Jackson, the Director of EPA appointed by Barack 
Obama, made that statement and said, no, it would not reduce 
because this isn't where the problem is. It is in China, it is 
in India, Mexico and other places.
    The $3,000 per family would be something that would not 
achieve the benefits that the other side seems to think are 
there. This version is going to have a similar impact. The 
Chamber of Commerce estimated one final construct of the rule 
would cause $51 billion in lost GDP each year. The Heritage 
Foundation estimated it would decrease household income by 
$1,200 a year.
    These are the facts but they are not talking about the 
points we hear from the other side. Keep in mind also they are 
trying to do this through regulation, Obama is, because he 
couldn't do it through legislation. We have had countless bills 
introduced to do the very same thing through legislation. Each 
time they are introduced, they are defeated by a larger margin.
    I think if for no other reason, the mere fact that it has 
been rejected by the House and the Senate is very significant. 
Why should we through regulation try to do something that the 
elected members of this body have rejected over and over again?
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

         Prepared statement of Hon. James Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Today we are joined by four former Administrators of the 
Environmental Protection Agency who were appointed by 
Republican Presidents: the Honorable William Ruckelshaus served 
as the first EPA Administrator under President Richard Nixon 
and then again under President Ronald Reagan; the Honorable Lee 
Thomas also served under President Reagan; the Honorable 
William Reilly served under President George H. W. Bush, and 
the Honorable Christine Todd Whitman served under President 
George W. Bush.
    I am proud that our landmark environmental laws were 
created with an overwhelming bipartisan consensus, and it 
saddens me that protecting the environment at the Federal level 
has become a partisan issue.
    In 1970, the Clean Air Act passed the Senate by a vote of 
73-0, passed the House by 375-1, and was signed into law by 
President Nixon.
    In 1990, revisions to the Clean Air Act passed the Senate 
by a vote of 89-11and by 401-21 in the House, and were signed 
into law by President George H.W. Bush.
    But in the last Congress the Republicans then sent us over 
90 anti-Clean Air riders.
    We should all know we must take action to reduce harmful 
carbon pollution, which 97 percent of scientists agree is 
leading to dangerous climate change that threatens our 
families. To say we can't have an opinion because we are not 
scientists makes no sense to me. All the more reason to listen 
to the scientists.
    The four former EPA Administrators with us today will 
testify about the need to control carbon pollution so we can 
avoid the most calamitous impacts of climate change--such as 
rising sea levels, dangerous heat waves, and economic 
disruption.
    The American people understand the threats posed by climate 
change, and they want action. According to a recent Washington 
Post-ABC poll, a bipartisan majority of the American people 
want Federal limits on carbon pollution. Approximately 70 
percent say the Federal Government should require limits to 
carbon pollution from existing power plants, and 70 percent (57 
percent of Republicans, 76 percent of Independents, and 79 
percent of Democrats) support requiring states to limit the 
amount of carbon pollution within their borders.
    Power plants account for nearly 40 percent of all carbon 
pollution released into the air. Unlike other pollutants, right 
now there are no limits to the amount of carbon pollution that 
can be released into the air for power plants.
    The President's carbon pollution reduction plan will avoid 
up to 6,600 premature deaths, 150,000 asthma attacks, 3,300 
heart attacks, 2,800 hospital admissions, and 490,000 missed 
days at school and work.
    It is in America's DNA to turn a problem into an 
opportunity, and that is what we have done by being a pioneer 
in the green technology industry. These new carbon pollution 
standards are no different. Landmark environmental laws have 
bolstered an environmental technology and services sector that 
employs an estimated 3.4 million people, according to the 
Bureau of Labor Statistics. And many of these jobs, like 
installing solar roofs and wind turbines cannot be outsourced.
    I want to thank Senator Whitehouse for putting together 
this marvelous panel.

    Senator Whitehouse. Thank you, Senator Inhofe.
    We turn now to Senator Cardin.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Senator Whitehouse. I thank you 
for your extraordinary leadership on this issue. You have been 
incredibly helpful to this Country in the leadership you have 
taken, particularly in your comments on the floor of the U.S. 
Senate.
    I want to start by thanking our panelists today for what 
you have done to improve the public health for the people in 
this Nation. You have put public health first and that is what 
Congress intended when it passed the Clean Air Act and the 
Clean Water Act. It was done by bipartisan votes.
    The Clean Air Act was enacted in 1970 with bipartisan 
support by the Members of Congress in both the House and the 
Senate and signed into law by President Nixon. You have given 
us the bipartisan or nonpartisan foundation for us to have 
clean water and clean air. Now we need to move forward in that 
tradition. Unfortunately, we have not.
    I hope we can get back to the same type of spirit that 
inspired you to use your talent at the EPA as we move forward 
to advance the public health of the people of this Country.
    Seven years ago when I was first elected to the Senate, we 
had bipartisan members in the Senate working together on 
climate change legislation. I hope we can get back to that day 
and get that bipartisan coalition together.
    Quite frankly, the solution is one which will answer every 
member's concerns. Yes, many of us, most of us, are concerned 
about the environmental public health threat that climate 
change poses. I have the honor of representing the State of 
Maryland. Our greatest natural resource is the Chesapeake Bay.
    We are doing a lot. We have asked our farmers to do a lot. 
We have asked our developers to do a lot. Our municipal 
governments have done a lot. We have worked together in the 
public and private sector. A large part of the problem deals 
with climate change, rising sea levels nad the loss of sea 
grasses. Therefore, climate change affects the quality of life 
for the people of Maryland.
    The scientific information on our environment is pretty 
clear on public health. As pointed out, 97 percent of the 
published scientific documents indicate we have a serious 
threat that we can do something about and we need to take 
action.
    By way of example, if I went to a doctor and 97 percent of 
the opinion was that I had pneumonia and unless I took certain 
action, I was risking my health, I would take action, as would 
every person in this Country.
    It is clear that the overwhelming evidence is that we need 
to take action and move to preserve the public health, not just 
of America, but globally and the future health of our climate.
    The good news is we don't really have to get into debate 
with the other 3 percent because the solution to the problem of 
climate change not means a cleaner environment and a safer 
circumstance for global climate, it also helps our economy.
    I would just point to the Maryland experience. We passed 
some of the toughest environmental laws for our power plants 
and it created jobs. We can show you the number of jobs that 
were created. Clean energy creates more jobs than the fossil 
fuel industry.
    There are those saying maybe this is not true, you 
certainly want to do it for our economic growth in this 
Country. It also helps us with national security. We have 
talked about that. We have made progress and are now more 
energy secure than we were a few years ago because we have 
invested in cleaner energy sources to help support America's 
security, economy and our environment.
    I can also point to the fact that from our security point 
of view, many of our military facilities are located on the 
coast. In Maryland, we are very proud of the Naval Academy, PAX 
River, Aberdeen Proving Grounds, Indian Head. All those are 
threatened by sea level increases. It is in our national 
security interest to do this.
    The bottom line is the United States needs to exercise 
leadership. President Obama is doing that by his climate action 
agenda and by regulating what power plants are doing. We have 
seen our President provide the leadership that has made a huge 
difference. It is now time for Congress to step up and join the 
President so America can be a leader in dealing with this 
global problem that affects the security of our Country and 
affects the future of our globe.
    Senator Whitehouse. Thank you, Senator Cardin.
    Our distinguished Ranking Member and my friend, Senator 
Sessions, but he has allowed us to keep the existing order so I 
will recognize Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you very much, Mr. Chairman.
    It is good to see the miners here. It is important that you 
are here.
    One topic we are hearing a lot about today is the 97 
percent consensus among scientists on climate change. It is 
important to ask, where does this 97 percent number come from 
and what does it mean?
    Many scientists question the level of certainty behind the 
specific climate change scenarios. Others have shown gaps in 
our knowledge of climate sensitivity. Others have raised 
questions regarding the reliability of climate models and yet 
scientists who raise any of these issues can still be counted 
as the 97 percent.
    Too often anybody who raises a question or disagrees with 
the left wing political position is called out as opposing 
views held by 97 percent of the published climate scientists as 
we are hearing today.
    This is clearly not true. Again, what does this number 
mean? The statistic comes from a 2013 review of scientific 
literature published between 1991 and 2011. This review found 
that among abstracts expressing a position on anthropogenic 
global warming, 97.1 percent endorsed the consensus position 
that humans were causing global warming.
    Basically, if anyone agrees with human activity's influence 
on the climate, that is a pretty broad definition.
    Policymakers who disagree with the expensive big government 
left wing climate policies might still actually agree with the 
97 percent consensus. Scientists who question important 
elements of current climate scientists are included in the 
number.
    For example, last year, this committee received testimony 
from the climatologist Dr. Roy Spencer. To give you an idea of 
where he stands, Dr. Spencer published a book entitled, ``The 
Great Global Warming Blunder, How Global Warming Hysteria Leads 
to Bad Science, Pandering Politicians and Misguided Policies 
that Hurt the Poor.''
    Given his outspoken position on climate policy, Dr. 
Spencer's comments on the 97 percent statistics are noteworthy. 
He testified ``The fact that I believe at least some of recent 
warming is human caused makes me in the 97 percent of 
researchers who recently claimed to support the global warming 
consensus. The 97 percent statement therefore is innocuous 
since it probably includes all of the global skeptics I know 
who are actively working in the field.''
    In short, like the offensive term deniers, the 97 percent 
statistic is a misleading tactic used to marginalize people who 
are concerned about hardworking Americans and impose an all 
pain, no gain energy policy that is bad for our Country and 
will not change the global climate.
    I am not a scientist but I am an optometrist. I spent much 
of my life working with the scientific community. I was a 
zoology major. I have said before that there is nothing 
scientific about discrediting people who present conflicting 
evidence and ask reasonable questions.
    Politicians aren't science referees cutting off debate when 
it suits one side and no one has a monopoly on the facts. The 
bottom line is we must ask whether these Obama administration 
policies are worth the lost jobs, lower take home pay, higher 
gas and electricity prices, higher food prices and so on.
    The President once said that his climate policies would 
make the cost of electricity necessarily skyrocket and I 
believe him. Let us remember that the pain will last for 
decades and falls hardest on low income families. We are 
driving our industries overseas, hurting American workers and 
creating foreign factories that emit far more than we would.
    I believe in American leadership but we are fooling 
ourselves if we believe that China, Russia, India, Vietnam and 
so forth are going to follow the President's lead and shut down 
their power plants.
    With that said, I thank our witnesses for being here and 
look forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you, Senator Boozman.
    I will now turn to Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Senator Whitehouse, for 
chairing this hearing today on the need to act on climate 
change and for your leadership in the Senate to continue to 
raise the urgency of this issue.
    Madam Chairwoman, I am deeply grateful for your leadership 
and your continued focus on how important this is for our 
families and our Country.
    Climate change is real, it is here and humans have a role 
to play in it. That much is clear. While it might be easy for 
some to continue to deny the existence of climate change, we 
simply do not have that luxury in New York.
    In my State, we are seeing the effects of a changing 
climate every single day. Two and a half years ago, Superstorm 
Sandy devastated coastal New York as well as New Jersey, 
Connecticut, Rhode Island and its effects were long felt on the 
entire Atlantic coast.
    That was just 2 years after two other devastating storms, 
Hurricane Irene and tropical storm Lee, which cut a path of 
destruction all across the northeast. These major tropical 
storms in New York over a 2-year period is a huge issue we have 
to face.
    The storm of the century is simply becoming the storm of 
the year. It is not just the storms themselves that are causing 
the destruction. Sea levels rise and are threatening greater 
storm surge effects, meaning that homes thought to be safe for 
centuries are now at grave risk of flooding.
    Those who deny that climate change is real often talk about 
the potential costs of reducing carbon emissions, but we must 
weigh those costs against the cost of inaction. Inaction on 
climate change will cost the Federal Government and our 
taxpayers billions and billions and billions of dollars.
    We have already seen Superstorm Sandy cost more than $60 
billion. In action on climate change also cost homeowners who 
live in coastal communities. Their flood insurance premiums 
have gone up with sea levels rising, it is causing greater 
flooding and FEMA's flood maps were released a year ago show an 
expansion of New York City's 100 year flood plain by 15 square 
miles. That is 45 percent. All of New York City is now having 
to be contemplated.
    It also has real cost to my State and the people who live 
there when these storms strike. Rebuilding a home or a business 
is very expensive. Suffering the loss of a child or a family 
member because of a storm, you don't recover from it. These are 
real costs. These have insurmountable losses and effects.
    We have to realize that is the effect of the change in our 
climate. We have to address the issue head on. If we address 
the issue head on, we will save lives, we will lower costs, we 
will protect families' homes and communities and we will 
protect businesses.
    We also know for the economy, when we look to reducing our 
carbon emissions, we also gain greater innovation and business 
opportunities in clean energy. In fact, a recent report by the 
Environment Northeast showed that States that do participate in 
regional greenhouse gas initiatives have seen carbon pollution 
reduced by 18 percent and their economies have actually grown 
by 8.8 percent.
    The report also showed that since the launch of RGGI, New 
York's electricity prices have actually gone down. They have 
gone down by 6 percent. I am confident that we, this Nation, 
and some of the greatest entrepreneurs and innovators in the 
world can solve this problem and do it in the way that can save 
all Americans costs.
    The real and clear issue with regard to climate change is 
that it is a threat we have to take seriously as a Nation. We 
cannot wait for other countries who are even bigger polluters 
to take leadership. We cannot wait for them to go first. We 
have to lead. It is who we are. We, as Americans, are always in 
the forefront of real reform and change and great innovation.
    Thank you, Senator Whitehouse, again for holding this 
hearing. It is so important for my State and our Country. It is 
a great opportunity for us to show new creation of jobs and new 
innovation. I think we need to take it head on.
    Senator Whitehouse. Thank you, Senator Gillibrand.
    I now turn to our distinguished Ranking Member and my 
friend, Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Senator Whitehouse.
    I know these are important issues to you and you have spent 
a lot of time and effort in mastering these issues.
    I am pleased to have our guests with us, the former EPA 
Administrators. We have indeed made a lot of progress in our 
Country since the Environmental Protection Agency was started 
several years ago. We appreciate your leadership in that 
regard.
    It is great to have Attorney General Luther Strange, my 
able successor as Attorney General of the State of Alabama. 
Attorney Generals have environmental responsibilities for their 
States.
    Dr. Mason, it is great to have you and Dr. Botkin, it is 
wonderful to have you with us. I think it will be a good 
hearing today.
    We have had some agreement on a number of issues that we 
ought to celebrate. We had agreement at one point, I thought, 
that we would expand nuclear power, which emits no CO2 and 
other pollutants into the atmosphere but we are not making much 
progress there. We have lost four plants in the last few years. 
A fifth is due to close, I believe, in 2019 and only two are 
under construction.
    How do we get clean energy at a reasonable cost without 
more nuclear power, it seems to me? We have had some agreement 
on ethanol though I wonder now whether my votes or my ideas 
were quite as positive as we thought at the time on ethanol. 
Good people disagree on the wisdom of ethanol.
    We have had some good legislation and maybe some over 
reaching but some good legislation on efficiency. We can agree 
on how to make our automobiles, our plants and our buildings 
more energy efficient but we are concerned about the dramatic 
economic costs, the costs that would fall on the backs of many 
of the people sitting in our audience today who produce that 
huge portion of our energy, coal, and other energy production 
that will be adversely impacted by the President's regulations.
    We have to ask some tough questions about that. I think we 
will.
    It has been mentioned that we have had some storms. I would 
note that hurricane Sandy was not a hurricane. By the time it 
hit shore, it was a tropical storm. We are not seeing increases 
in hurricanes. In fact, it has been 3,100 days since we have 
had a Category 3 hurricane in America. That is a remarkable 
time and maybe one of the longest ever.
    IPCC's fifth climate assessment report released last year 
said, ``Current data sets indicate no significant observed 
trends in global tropical cyclone frequency over the past 
century. Dr. Pilkey testified here that we don't have more 
tornadoes, we don't have more droughts and we don't have more 
floods, according to the data he has evaluated.
    I just say that it is right and just that members who 
represent the people of the United States, the workers of the 
United States, the people who pay electricity bills and pay 
their gas bills to go to work every day, we represent them too.
    We have to ask ourselves are we doing something to this 
economy that is not good for us and how can we make positive 
gains together without damaging our economy. I would note, just 
for the record, that our colleagues need to know that our 
economy is struggling. We are not doing well.
    Since 2009, median household income has fallen by $2,300. 
Since 2009, 7.2 million people have left the work force. Growth 
in the first quarter of this year was negative 1 percent. One 
out of every six men 25 to 54 is not working today. These are 
statistics that ought to cause us concern.
    We have found that many of the regulations are ineffective. 
The United States' actions which have been improving with CO2 
emissions and we are containing the growth of CO2 more than 
most countries in the world, will be insignificant in the total 
world impact.
    I hope that this committee hearing will be positive and we 
can find some common ground and work together but CO2 is not 
the kind of pollutant, Ms. Whitman and gentlemen, that you 
fought effectively--NOx, SOx, particulates, and mercury. CO2 is 
not that same kind of pollutant, it just isn't, and we have to 
be careful that we don't hammer this economy attempting to 
achieve something we have very little ability to achieve.
    Thank you, Mr.Chairman.
    Senator Whitehouse. Thank you, Senator Sessions.
    For our final statement, we have Senator Booker of New 
Jersey.

            OPENING STATEMENT OF HON. COREY BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. I appreciate this opportunity. I want to 
thank Ranking Member Sessions and Chairman Whitehouse.
    I want to particularly thank you for having the right kind 
of panel assembled here which are Republican Presidential-
appointed EPA leaders, including my former Governor, who I am 
proud and happy to see today. I hope you got my cell phone 
message last night.
    I am extraordinarily pleased because it clearly says that 
this is not a left-right issue. This is not an issue of 
politics, this is an issue of facts. To have Republican 
Presidentially appointed EPA heads come out, as they did in 
their joint editorial, and clearly say, we have a problem.
    It frustrates me to no end that this is nothing new. When 
people tell the truth of an environmental problem that we have 
the capacity to do something about, you hear the same story 
over and over again.
    Chairman Whitehouse, I would like to put into the record an 
article going back and tracing what everyone used to say about 
what would happen to the economy if we did certain things.
    Senator Whitehouse. Without objection.
    [The referenced information follows:]
   
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Booker. It just shows the upward slant of our 
economy. When the 1972 Clean Water Act came out, everyone said 
the economy would be destroyed, it would cost us jobs--quite 
the contrary, our economy increased. It helped to push our 
economy forward.
    When the Endangered Species Act came out, everyone said the 
economy would be destroyed, it was going to have horrible 
effects. Quite to the contrary, the American economy continued 
to surge.
    In 1987, the Montreal Protocol to protect the ozone layer, 
everyone said, the economy would be destroyed and jobs would be 
the cost. In fact, quite the contrary, when we do stand up, 
Republicans and Democrats, and work together to address real 
environmental issues pointed out not just by scientists, but 
also by Republican presidents, we accomplish great things.
    The 1990 Clean Air Act amendments done under the Bush 
administration--I am happy that Hon. William Reilly is here--
which addressed our acid rain issues, had tremendous collateral 
benefits. It avoided more than 160,000 premature deaths. The 
life of humanity cannot be quantified numerically but, dear 
God, the health and safety of all residents should be your No. 
1 mission.
    It prevented 140,000 heart attacks, acute myocardial 
infarctions, and millions and millions of cases of respiratory 
problems, acute bronchitis and asthma were helped by this 
Republican and Democrat coalition under a Republican President 
with a Republican-appointed EPA head. It prevented 13 million 
lost work days, improving worker productivity and kept kids 
healthy in school, avoiding 3.2 lost school days.
    This is what we can do when we open and see the facts that 
Republicans that will talk about today. To me, this is the 
concern. I do not need to reState what Senator Gillibrand said. 
The actual truth is, we are seeing climate change right now. I 
cannot speak to tornadoes, I don't see any of them in New 
Jersey, but I can speak to the extreme heat problems we are 
having all across the Country which is real, measurable and 
unequivocal.
    That is causing severe impacts on our Nation and our 
Nation's economy. I am worried about what is happening in 
Atlantic City with the oceans rising. It is not an opinion, it 
is a fact and it is measurable. We are likely to see on the New 
Jersey shore the ocean rise 1.5 feet by 2050 and 3.5 feet by 
2100.
    I am especially concerned about the health concerns. EPA's 
regulation of power plants will bring us immediate health 
benefits. It is estimated that in the first year of the new 
rules taking effect that 100,000 asthma attacks and 2,100 heart 
attacks can be prevented. To me that is real.
    It is unfortunate that marginalized folks, often poor 
people, are the ones who feel the impact of us doing nothing 
most. African American children are twice as likely to be 
hospitalized for asthma. I do not need to see the statistics; I 
see it in school systems across the State of New Jersey. They 
are four times more likely to die of asthma. Latinos are 30 
percent more likely to be hospitalized for asthma.
    The beautiful thing about this is by doing the right thing, 
we not only will not hurt the economy, but we can actually help 
to improve the economy. If States use these regulations and the 
opportunity to make investments, it is estimated we could be 
seeing upwards of $279 billion invested in retrofitting 
buildings.
    This creates jobs and spurs the economy. These are the 
kinds of jobs that cannot be outsourced. The investment can 
yield more than $1 trillion of energy savings over 10 years.
    I am excited about the opportunity this presents. I feel 
the urgency when it comes to the health and safety and the long 
term economic well being of our Nation. We must act and we must 
act now.
    I end with the simple conclusion that the choice between 
action that is wise and endorsed by Republican-appointed EPA 
leaders goes to the very evidence that they understand the 
truth of the matter that is true of humanity as well as the 
United States that the only thing necessary for evil to be 
triumphant is for good people to do nothing.
    Senator Whitehouse. Thank you, Senator Booker.
    We now have the opportunity to hear from our wonderful 
panel. I will introduce the panel as a group right now and then 
we will go from witness to witness.
    The Honorable William D. Ruckelshaus was the inaugural EPA 
Administrator under President Nixon and was later brought back 
as EPA Administrator under President Reagan. He banned the use 
of the pesticide DDT.
    The Honorable Lee M. Thomas served under President Reagan 
and was instrumental in the negotiation and ratification of the 
Montreal Protocol to phaseout substances that deplete the ozone 
layer.
    Governor Christine Todd Whitman served two terms as 
Governor of New Jersey before serving as EPA Administrator 
under George W. Bush. She oversaw implementation of standards 
that significantly reduced diesel air pollution.
    The Honorable William K. Reilly, EPA Administrator under 
President George H.W. Bush worked to amend the Clean Air Act, 
as already mentioned, to control acid rain.
    Dr. Daniel Botkin is Professor Emeritus of Biology at the 
University of California, Santa Barbara.
    The Honorable Luther Strange is Alabama's Attorney General. 
As the former Attorney General of Rhode Island, I particularly 
welcome a colleague here.
    Dr. Joseph R. Mason is the Hermann Moyse Jr./Louisiana 
Bankers Association Endowed Professor of Banking at Louisiana 
State University and Senior Fellow, The Wharton School.
    I welcome our panel. We will begin with Hon. William 
Ruckelshaus.

STATEMENT OF WILLIAM D. RUCKELSHAUS, STRATEGIC ADVISOR, MADRONA 
  VENTURE GROUP AND FORMER ADMINISTRATOR, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Ruckelshaus. Thank you, Senator Whitehouse, Senator 
Sessions and other members of the subcommittee for convening 
this hearing on a matter of enormous importance for our future.
    I am pleased to be here and reassure at least of you that I 
am still alive.
    Several months ago after talking with one another, the four 
former EPA Administrators sitting in front of you found we were 
convinced by the overwhelming verdict of scientists that the 
earth was warming and that we humans were the only controllable 
contributor to this phenomenon.
    Given those facts, we all signed an op-ed piece that 
America get serious about reducing our contribution to changing 
the world's climate rather than simply sitting back and 
accepting the avoidable consequences.
    If anything, new reports in the last several months have 
made the need to act even more urgent. It is hard to believe 
that there is any question of that. The International Panel on 
Climate Change report validates in the strongest terms the 
science of climate change and projected impacts.
    The National Climate Assessment documents impacts occurring 
here in this Country right now. A report from the CMA 
Corporation, made up of retired military officers, highlights 
the national security and military readiness concerns due to 
climate change.
    We have, as EPA Administrators, served four Presidents over 
four decades. We have successfully wrestled with a variety of 
public health and environmental problems, all contentious, 
including severe automobile, industrial and air pollution, 
widespread water pollution and the unacceptable effects of 
pesticides like DDT.
    We have made progress. We cut our automobile emissions, for 
example, by 95 percent and greatly improved air quality while 
the number of cars has doubled. The hole in the ozone layer and 
acid rain are under control.
    Inherent in all of these problems was uncertain science and 
powerful economic interests resisting controls. The same is 
true of climate change. In all cases cited, the solutions to 
the problems did not result in the predicted economic and 
social calamity. Scientific uncertainty or the inevitable 
industry resistance does not mean that nothing should be done 
unless we are willing to suffer the consequences of inaction.
    We believe there is legitimate scientific debate over the 
pace and effects of climate change but no legitimate debate 
over the effect of the earth's warming or man's contribution. 
The models of the world's leading scientists predict rising 
seas, drought, floods, wildfires and more severe and frequent 
storms. Those are the projections and predictions of these 
models.
    We are seeing impacts already. Since the ocean absorbs 25-
30 percent of the carbon from stationary or mobile sources, we 
thought the ocean was our friend. It was, keeping significant 
amounts of carbon from the atmosphere. Our friend is paying a 
penalty.
    The carbon from the burning of fossil fuels is causing the 
acidity of the ocean to rise and is already threatening 
shellfish, coral reefs and other ocean species. The culprit is 
the same carbon that originated from fossil fuels that is 
contributing to planetary warming.
    I was the co-chairman of a committee in my home State of 
Washington appointed by the Governor to look at the impacts of 
ocean acidification on Puget Sound which directly threatened 
the shellfish industry in Puget Sound that contributes $275 
million a year to the State's economy.
    To find out what the nature of the problem was and taking 
steps to both adapt to it and try to reduce the amount of 
carbon in Puget Sound has begun to have some beneficial effect.
    We also know that if America does not get serious about our 
responsibility to deal with this problem, nothing much will 
happen in the rest of the world. No action is a choice. It is a 
choice that means we leave to chance the kind of future we want 
and opt out of the solution to a problem that we are a big part 
of.
    We like to speak of American exceptionalism. If we want to 
be truly exceptional, then we should begin the difficult task 
of leading the world away from the unacceptable effects of our 
increasing appetites for fossil fuels before it is too late.
    This is an extremely complex problem whose solutions are 
not straightforward. We believe this is no excuse for the 
complacency or not stepping up to our responsibility.
    [The prepared statement of Mr. Ruckelshaus follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    Senator Whitehouse. Thank you very much, Mr. Ruckelshaus.
    Governor Whitman.

  STATEMENT OF CHRISTINE TODD WHITMAN, PRESIDENT, THE WHITMAN 
   STRATEGY GROUP; FORMER GOVERNOR, STATE OF NEW JERSEY; AND 
   FORMER ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Whitman. Thank you very much, Mr. Chairman and Ranking 
Member Sessions for holding this hearing and allowing us this 
opportunity.
    I have to begin by expressing my frustration with the 
discussion about whether or not the Environmental Protection 
Agency has the legal authority to regulate carbon emissions 
that is still taking place in some quarters.
    The issue has been settled. EPA does have the authority. 
The law says so, the Supreme Court has said so twice. That 
matter, I believe, should now be put to rest. Given that fact, 
the agency has decided, properly in my view, that it should act 
now to reduce carbon emissions to improve the quality of our 
air, protect the health of our people and as part of an 
international effort to address global climate change.
    To the United States, climate change is not just an 
environmental issue or an economic issue. Climate change also 
has very real implications for our national security. Those 
concerns must be an important part of any discussion that takes 
place.
    We all know that the earth's climate is changing. We also 
know that human activity, although not solely responsible and 
we should freely acknowledge that, is both contributing to that 
change and increasing the risks that we will push the 
environment beyond the point at which we can repair it.
    We should know that when one is contributing to a problem, 
one has an obligation to be a part of the solution of that 
problem. That is what the EPA is trying to do.
    There is, of course, honest disagreement about aspects of 
the agency's power plant proposal, including whether or not it 
may be stretching its legal authority a bit too far in some 
parts of the proposed rule. I am sure, however, that EPA will 
be made aware of all concerns during the comment period.
    My hope, however, is that the primary focus will be on the 
substance of the proposed rule and not EPA's broad authority to 
promulgate it. That being said, it is clear that the Clean Air 
Act, as it now stands, is an imperfect tool to address the 
unique challenges that climate change presents. congressional 
action and leadership would be a preferable approach, but since 
Congress has declined to act, EPA must. That is the law. Action 
will not come without cost, but since President Nixon created 
the EPA in 1970, it has sought to carry out its mandate in a 
balanced way.
    Environmental protection and economic prosperity are not 
mutually exclusive goals. EPA has not always been able to reach 
a State of perfect equilibrium. I think we will all agree to 
that. It has, however, consistently struck a reasonable balance 
that protects both the health of the environment and the health 
of the economy.
    From 1980 to 2012, the total emissions in the United States 
of six common air pollutants dropped 67 percent. At the same 
time, our population grew by 38 percent. Our energy consumption 
increased by 27 percent and our GDP more than doubled in 
constant dollars.
    More people consuming more energy emitted much less 
pollution without sacrificing economic growth. That is clear 
evidence of the balance that EPA has been able to strike in the 
past. If the past is prologue, further reductions are both 
achievable and affordable.
    Mr. Chairman, my hope is that Congress will at long last 
acknowledge that climate change is real, that humans are 
contributing to it, and that the potential consequences of 
inaction are far greater than the projected costs of action.
    We have specific and scientific consensus on this issue. 
What we need is political consensus. The two parties were able 
to rally around a common purpose in the early days of the 
modern environmental policymaking. It is urgent that they do so 
again.
    Thank you very much.
    [The prepared statement of Ms. Whitman follows:]
  
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
    
    Senator Whitehouse. Thank you very much, Governor Whitman.
    We now turn to Mr. William Reilly. Welcome.

 STATEMENT OF WILLIAM K. REILLY, SENIOR ADVISOR, TPG CAPITAL; 
    CHAIRMAN EMERITUS, CLIMATEWORKS FOUNDATION; AND FORMER 
      ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Reilly. Thank, Mr. Chairman, Senator Sessions and 
members of the subcommittee.
    Thank you for convening this session on one of the critical 
challenges our Country faces. It is a privilege to appear with 
two of my predecessors and Governor Whitman who served after 
us.
    After I was nominated in 1988, my first briefing on climate 
was by Frank Press, president of the National Academy of 
Sciences, followed soon by briefings on EPA's reports on 
climate effects and policy options commissioned by 
Administrator Thomas.
    Incidentally, 11 National Academy of Science since that 
time have formally reflected upon and studied climate science 
and have concluded that humans are affecting the climate and 
greenhouse gases are changing it.
    At that time, climate science was a matter of computer 
modeling, coupled with theory, notably the greenhouse effect, 
which explains why the earth's atmosphere is hospitable to 
life. At that time, the concern was sufficient to prompt then 
Secretary of State Jim Baker in his first statement on the 
topic to signal a policy of no regrets. We will consider those 
measures, he said, that address current priorities that also 
help reduce gas emissions.
    The 1987 Montreal Protocol, which Lee Thomas helped 
negotiate, is an example of this kind of thinking. That was 25 
years ago. Today, the models are far more reliable and they are 
buttressed by literally thousands of credible scientific 
studies documenting changes underway.
    I listened to Senator Boozman. There are still many 
outstanding questions, the pace of change, tipping points, 
local impacts, fugitive methane emissions and more. The earth's 
climate is a complex system. We do not have a complete picture. 
We welcome serious, constructive critiques that examine gaps, 
anomalies and uncertainties. That is how science advances our 
understanding of such complex issues.
    Change is underway. We can expect to see many more 
disruptions, more intense storms, more wildfires, the spread of 
pests and diseases, dengue fever will arrive in America, storm 
surges that overwhelm coastal communities, heat waves and other 
impacts on our health, on water resources, on food production 
and on other sectors of our economy.
    The longer we delay, the more adverse the impacts will be 
and the more expensive will be to address them. Reducing 
greenhouse gas emissions, especially carbon dioxide, can help 
fend off more draconian impacts later this century.
    I increasingly believe we have a second, immediate agenda, 
namely to prompt States, communities and our Federal agencies 
to begin to adapt to likely changes and to buildup resiliency. 
Dealing with flooding and meeting future projections from storm 
surges will be costly and add to growing demands on Federal, 
State and local budgets.
    I chaired a task force on adaptation for Governor 
Schwarzenegger . We concluded that the 1,100 levees in the 
Sacramento Basin simply will not survive anticipated sea level 
rise.
    Climate change and associated disruptions, as has been 
pointed out, are a global problem. Absent action by China, 
Brazil, India and other fast growing economies, what we do 
alone will not suffice.
    Action by the United States, if not sufficient, is 
nonetheless necessary if we are to have credibility to 
negotiate with other countries who typically fault the 
developed world for causing the problem and worry that carbon 
constraints will thwart their legitimate needs for economic 
growth.
    I must express some disappointment that the debate between 
developed and developing countries has tended to focus more on 
how much financial aid advanced nations are willing to provide 
rather than on the substance of how much and how to reduce 
greenhouse gas emissions in those nations.
    I participated for a number of years in the China 
Sustainable Energy Forum. At first, throughout the 1990's, any 
mention of climate change triggered a lecture about how those 
who caused the problem should pay for fixing it globally.
    As China has begun to experience serious impacts, 
especially in water resources, it now is a matter of self 
interest that they respond and join constructively in 
international negotiations, even as they continue to assert the 
national interest in development.
    China announced 1 day after the announcement by EPA of its 
new carbon rule that they intend to build a cap on carbon 
dioxide. This is obviously a response to the United States, a 
significant one, and it is further demonstration of U.S. 
leadership.
    Markets the world over seek clean energy technologies. Well 
over a billion people do not have electricity. For many, it 
will be small scale, renewable technologies that will help 
improve their lives and offer new economic opportunities.
    Technology and innovation are a comparative advantage for 
our Country that will help control what we can and help find 
ways to replace the most serious contributors to the climate 
challenge.
    This is an enormous opportunity for U.S. entrepreneurs and 
exporters, even as we deploy more clean energy at home. While 
the President has taken many important steps, a full and 
constructive response is needed from Congress.
    In closing, I have little doubt that the planet will endure 
major climate disruptions. There have been many such episodes 
in the past due to natural causes, but you would have to reject 
the greenhouse effect out right to conclude that human 
activities pumping millions of tons of CO<INF>2</INF> and other 
greenhouse gases into the atmosphere every year are having 
little or no impact on the earth's climate.
    That is simply not a tenable position. For me, the question 
is how hospitable this earth remains for future generations and 
for civilization as we know it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Reilly follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Senator Whitehouse. Thank you very much, Mr. Reilly.
    We now turn to former Administrator Thomas. Welcome.

    STATEMENT OF LEE M. THOMAS, FORMER ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Thomas. Thank, Mr. Chairman, Senator Sessions and 
members of the subcommittee for holding the hearing and giving 
me an opportunity to offer a perspective on climate change 
based upon my experience at EPA dealing with many complex 
environmental issues during the Reagan years.
    I have approached the issue using a risk assessment and 
risk management process. This is the approach we used during my 
time at EPA as we addressed a range of environmental problems.
    Whether it was assessing the impact of stratospheric ozone 
depletion caused by chlorofluorocarbons or the impact of lead 
and gasoline on children's health, scientific data and analysis 
was the first step in evaluating the risk posed by the problem.
    During my 6 years at EPA, I dealt with many contentious 
issues, first, as Assistant Administrator for 2 years and later 
as Administrator for a little over 4 years. I cannot remember 
any other matters I dealt with during that 6 year period of 
time that were not controversial--some more than others.
    The issue of climate change is one that the EPA and the 
global scientific community have studied and analyzed for 
decades, whether it is the Intergovernmental Panel on Climate 
Change or the latest scientific valuation that was authorized 
by Congress, the National Climate Assessment.
    There appears to be clear evidence regarding climate change 
and its anthropogenic foundation. We know that carbon dioxide 
concentrations in the atmosphere have increased by 40 percent 
since pre-industrial times.
    We know that carbon dioxide and other greenhouse gases are 
warming the atmosphere. We know they have contributed to a more 
than 1-1/2 degree Fahrenheit rise in global temperatures since 
the 1880's.
    We know global sea level has risen by an average of 8 
inches since 1870, primarily from thermal expansion caused by 
warmer oceans and some melting of glaciers on the Greenland and 
West Antarctic ice sheets.
    We know that ocean acidification is occurring, harming our 
coral reefs and marine ecosystems and we know that communities 
in our Country are dealing today with the effects of changing 
climate.
    In the State of Florida where I live, we see increasing 
salt water intrusion infiltrating our drinking water supply 
along the coast due to sea level rise. We see coastal 
communities dealing with the impact of sea level rise on their 
drainage systems. A major part of the systems in south Florida 
are being impacted.
    The economic impact is undeniable and the local governments 
struggle to address today's impacts of climate change while 
trying to anticipate the increased risk in the future is real.
    On a broader scale, scientific analysis of the issue points 
to widespread impacts across our Country. They range from the 
depleted shellfish harvest in the Pacific Northwest that Bill 
mentioned due to ocean acidification or to increased drought 
and wildfires in the southwest the National Climate Assessment 
Report suggested were linked to climate change.
    Given this assessment of the impacts and risks posed by 
global warming, EPA has the responsibility given to it by 
Congress and affirmed by the courts to address the risk 
management challenge. We know there are many approaches that 
can be taken and we also know that all of them are 
controversial.
    We know the gases we have emitted will remain in the 
atmosphere for decades to centuries and recognize that the 
solution will require a long term commitment if we are to 
mitigate both the effects already occurring and those 
forthcoming.
    We also know what many of the solutions are, some of which, 
Senator Sessions, you mentioned such as improving energy 
efficiency and increasing our reliance on low emission energy 
production. Widespread adoption of strategies like these can 
supplement an international agreement to reduced emissions.
    In addition, a coordinated national and international 
approach is needed to assist States and countries in 
implementing adaptation measures dealing with the impacts of 
climate change already taking place today.
    Clearly more action is needed to address the impacts today 
while addressing the larger issue of committing ourselves to 
avoiding dangerous levels of future warming. The recent steps 
taken by the EPA to reduce greenhouse gas emissions are 
significant mitigation measures and once again position the 
U.S. to demonstrate international leadership on an issue of 
global significance and consequence.
    I would suggest if the United States is not taking the 
leadership position that international agreement will never 
come to fruition.
    Thank you again for the opportunity to present my views to 
the subcommittee on what I consider a critically important 
issue.
    [The prepared statement of Mr. Thomas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Whitehouse. Thank you very much, Mr. Thomas.
    Before I go on to the next witness, let me thank each of 
you for your service to our Country in a challenging office 
over many years and for your testimony today.
    We now turn now to Dr. Botkin.

  STATEMENT OF DANIEL BOTKIN, PROFESSOR EMERITUS OF BIOLOGY, 
            UNIVERSITY OF CALIFORNIA, SANTA BARBARA

    Mr. Botkin. Thank, Mr. Chairman.
    I come here today as a scientist who since 1968 has 
published research on the possibility of human-induced global 
warming and its potential human and ecological effects.
    In 1970, I developed a computer model of forest use from 
then to the present to forecast possible climate change effects 
on forests and their endangered species. In the 1980's, one of 
my graduate students added world vegetation to a major climate 
model.
    In this new century, I was the lead author on a paper 
analyzing methods to forecast global warming impacts on 
biodiversity and published a paper comparing Arctic sea ice 
extent in the 19th century with that of the end of the 20th 
century.
    I have spent my career trying to help conserve our 
environment and its great diversity of species, attempting to 
maintain an objective, intellectually honest approach in the 
best tradition of scientific endeavors.
    I have been dismayed and disappointed in recent years that 
this subject has been converted into a political and 
ideological debate. I have colleagues on both sides of the 
debate and believe we should work together as scientists 
instead of arguing divisively about preconceived, emotionally 
based positions.
    I was an expert reviewer of both the IPCC and the White 
House National Climate Assessment. I want to State up front 
that we have been living through a warming trend driven by a 
variety of influences.
    However, it is my view that this is not unusual and 
contrary to the characterizations by the two reports, these 
environmental changes are not apocalyptic or irreversible. I 
hope my testimony here will help lead to a calmer, more 
rational approach to dealing with climate change and with other 
major environmental problems.
    The two reports do not promote the kind of rational 
discussion we should be having. I would like to tell you why.
    My biggest concern is that the IPCC 2014 and White House 
Climate Change Assessment Reports present a number of 
speculative, sometimes incomplete conclusions embedded in 
language that gives them more scientific heft than they 
deserve. The reports are scientific sounding rather than based 
on clearly settled facts.
    Established facts about the global environment exists less 
often in science than laymen usually thing. The two reports 
assume and argue that the climate warming forecast by the 
global climate model is happening and will continue to happen 
and grow worse. As you can see from Christine's graph over 
here, currently these predictions are way off the reality.
    The extreme overemphasis on human induced global warming 
has taken our attention away from many environmental issues 
that used to be front and center but have been pretty much 
ignored in the 21st Century. By my count, there are ten issues, 
a number of which have been mentioned here today, including 
global warming.
    A singular focus on climate change as the driver of the 
other nine obscures the best solutions to this full suite of 
environmental challenges we face. In terms of the need to act 
now, it is on these issues that we should focus with the 
concern over possible global warming prioritized properly 
within that group.
    There is an implicit assumption in both reports that nature 
is in steady State, that all change is negative and undesirable 
for all life, including people. This is the opposite of the 
reality. The environment has always changed. Living things have 
had to adapt to these changes and many require change.
    The report gives the impression that living things are 
fragile and rigid, unable to deal with change. The opposite is 
the case. Life is persistent, adaptable and adjustable. In 
particular, the IPCC report for policymakers repeats the 
assertion of previous IPCC reports that large fractions of 
species face increased extinction risks. Overwhelming evidence 
contradicts this assertion.
    The models making these forecasts use incorrect assumptions 
leading to over estimates of extinction rates. Surprisingly few 
species became extinct during the past 2.5 million years, a 
period encompassing several ice ages and warm periods.
    Some of the reports' conclusions are the opposite of those 
given in articles cited in defense of those conclusions. The 
White House Climate Change Assessment includes a table of 30 
different ecological effects resulting from climate change.
    I reviewed the studies cited to support this table and 
found not a single one of the 30 is supported by direct 
observations.
    The IPCC Terrestrial Ecosystem Report states that 7 of 19 
subpopulations of polar bears are declining in number, citing 
in support of this an article by Vongraven and Richardson but 
these authors State the contrary, that the decline is an 
illusion.
    On May 22, Vongraven stated that the polar bear population 
size never has been an estimate of total abundance in a 
scientific sense, but simply a qualified guess given to satisfy 
public demand.
    Some conclusions contradict and are ignorant of the best 
statistically valid observations. For example, the IPCC Report 
says that terrestrial and freshwater ecosystems have 
sequestered about a quarter of the carbon dioxide emitted to 
the atmosphere by human activities in the past three decades.
    I have done the first statistically valid estimates of 
carbon storage and uptake for any large area of the earth and 
can tell you that estimates of carbon uptake like vegetation 
used by IPCC are not statistically valid and over estimate 
carbon storage and uptake by as much as 300 percent.
    Finally, the IPCC Report uses the term ``climate change'' 
with two meanings, natural and human induced. I have heard that 
today over and over again. They are not distinguished in the 
text and therefore are confusing.
    Of course the climate is changing. It has always changed 
and it always will change. If the statement is assumed to be 
about natural change, then it is a truism, something people 
have always known and experienced. If the meaning is taken to 
be human caused, then the available data do not support the 
statements.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Botkin follows:]
    
    
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Whitehouse. Next, we will hear from Attorney 
General Strange. Welcome, Attorney General.

 STATEMENT OF HON. LUTHER STRANGE, ATTORNEY GENERAL, STATE OF 
                            ALABAMA

    Mr. Strange. Thank, Mr. Chairman, Senator Sessions and 
members of the committee for having me here today. I am pleased 
to be here to share my thoughts.
    As the Attorney General of Alabama, it is my sworn duty to 
uphold the rule of law for the almost 5 million people that we 
have in my State. That duty includes enforcing the 
environmental laws that help protect our natural resources and 
the health of our citizens.
    One of the most important matters I am involved with now as 
attorney general is serving as the coordinating counsel for the 
Gulf States in the historic BP oil spill litigation. Alabama's 
coastline was covered in oil and our economy was shut down for 
months as a result of the spill.
    I understand firsthand manmade environmental disasters and 
the importance of sensible and effective environmental 
regulations. With that said, my comments today reflect a 
continuing concern with this Administration's approach to 
environmental regulation.
    The defense of this proposal will be that the States have 
``flexibility.'' Providing the States with a narrow range of 
costly policy choices, which most of the States did not choose 
for themselves, does not provide any actual flexibility and 
still produces the same outcome--higher electricity prices and 
decreased generation.
    Repeating over and over again the word ``flexibility'' is 
not an adequate defense or an adequate answer to the low income 
consumers in my State or any other State, for that matter, who 
will ask why they must pay more to reduce CO2 emissions when 
those reductions cannot and will not impact the global climate.
    Congress did not intend for the Clean Air Act, Section 
111(d) to have such a far reaching consequence for the American 
people. Indeed, to prevent impacts such as those that will flow 
from EPA's proposed emission guidelines, Congress took care to 
limit EPA's authority under Section 111(d).
    Given the enormous burdens that would be imposed by EPA's 
proposed guidelines, however, it may be obvious that EPA has 
simply disregarded the limits of the law. These limits, 
moreover, are not questionable or controversial. They are 
expressed in clear elements of the Clean Air Act.
    First, the Clean Air Act forbids regulating sources under 
Section 111(d) if they are regulated under Section 112 of the 
Act. Existing electric utility generating units are regulated 
under Section 112.
    Second, the Clean Air Act also forbids Section 111(d) 
regulations based on emission reductions that cannot be 
achieved at individual facilities but instead rely on 
reductions that require actions by an entire system. EPA's 
proposed emission guidelines fully embrace a system-wide 
approach to regulation.
    Third, EPA has improperly attempted to limit Section 
111(d)'s express statutory delegation of authority to the 
States and in doing so, EPA's proposal not only rejects State 
discretion under the Clean Air Act, but jettisons decades of 
unquestioned precedent establishing State jurisdiction over 
electricity markets.
    In conclusion, the State of Alabama vigorously opposes 
EPA's proposed mandate to effectively restructure the electric 
sector as it would have disastrous consequences for electric 
reliability and the economy. Those consequences, moreover, 
would all stem from a patently unlawful application of the 
Clean Air Act.
    EPA's proposal seeks to expand the scope of Section 111(d) 
in an unprecedented manner. It would do so at the expense of 
State authority that is expressly identified and preserved in 
the Clean Air Act and in the unquestionable jurisdiction of 
States over intraState electricity markets.
    Finally, it would do all these things for no discernible 
benefit, given the increased emissions of China and other 
developing economies. There is no rationale that can support 
such regulation and this committee should ensure that it is 
halted.
    [The prepared statement of Mr. Strange follows:]
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Senator Whitehouse. Now, finally, we have Dr. Mason. Please 
proceed, sir.

  STATEMENT OF JOSEPH R. MASON, HERMANN MOYSE, JR./LOUISIANA 
  BANKERS ASSOCIATION ENDOWED PROFESSOR OF BANKING, LOUISIANA 
     STATE UNIVERSITY AND SENIOR FELLOW, THE WHARTON SCHOOL

    Mr. Mason. Good morning and thank you for inviting me to 
testify here today on this crucially important topic.
    My research specialty throughout my career has been market 
failures and crises. I began studying cap and trade markets in 
2005 as the EU system became a reality and quickly began to 
fail.
    I did so because of the preternatural push among lawmakers 
to embark upon cap and trade solutions despite widespread 
consensus among economists that cap and trade does not suit 
carbon emissions.
    With respect to Chairman Boxer's earlier medical analogy, I 
do not disagree with the diagnosis here but with the proposed 
treatment. You are all presupposing that the treatment is 
known. It is not.
    In recent history, no system, not the EU, the RGGI or the 
California Initiative has priced carbon at levels prohibitive 
to emissions. Prices currently hover at just $5 on the RGGI, 
$11 in California and between those two levels in the EU. It is 
widely viewed that prices in excess of $30 are necessary to cut 
emissions.
    The recent EPA proposal seems to be merely an attempt to 
specify quantity goals instead of price goals. There are two 
problems with this approach.
    First, to control quantity, one has to actually be in 
control of the thing one targets. The U.S. Federal Reserve 
wanted this years ago when it had to move away from targeting 
the money supply because so many near money substitutes existed 
that it really had no effectiveness just monitoring cash and 
checking account balances.
    In carbon markets, the common policy of carbon permit 
fungibility has always rendered this quantity targeting 
unworkable. In a series of famous cases, the EU high court 
ruled that EU member states have sovereignty over the amount of 
permits they issue.
    In one famous case in 2010 when invalid permits infiltrated 
BlueNext, the exchange had to close for 3 days while the 
permits could be isolated and swapbacks could be arranged for 
them to be removed from the market.
    Second, as an economist, it does not matter which side of 
the price quantity coin you look at, the effects are the same. 
Quantity will go down only if price goes up. When real prices 
go up, output declines and unemployment increases.
    Corporations already forego billions of dollars of 
investment due to anticipated carbon prices and States in which 
those corporations operate will feel the effects of this new 
policy. It is important to remember, however, those are not 
just oil and gas companies but companies like Walt Disney and 
Wal-Mart.
    In preparing for this hearing, I regressed the State EPA 
goals normalized for each State's percent of power from coal in 
2013 on a number of very important variables. Perhaps most 
importantly, the regression shows that States with lagging 
economies coming out of the great recession have tougher goals 
to meet than others.
    Certainly there are simple adjustments that can be made to 
mitigate the effects of carbon policy upon economic growth if 
we just think about those for a moment.
    No government has yet accepted the lower economic growth 
necessary to meaningfully curb carbon emissions. Officials know 
prices should go up but cannot bear the political heat of 
restricting permits to achieve that goal.
    In fact, in March 2014, the UK Chancellor of the Exchequer, 
George Osborne, announced the government would freeze attacks 
on carbon emissions as part of a broad plan to cut consumer 
energy bills. While his party backs carbon reform, consumer 
energy costs have become a campaign plank for the opposition 
which vowed to freeze energy prices if they win in mid-2015.
    A similar issue is growing in Germany which is subsidized 
renewables growth with a mandatory household surcharge on 
electricity and voters are not happy.
    By far, the worst effects of carbon markets have been the 
regulatory arbitrage fraud and theft that have occurred on such 
systems. If we are not ready to deal with the existing 
corporate fraud and bribery, tax fraud, investor fraud, 
counterfeiting, money laundering, hacking and phishing on 
carbon markets that have troubled established markets in recent 
years, we should not be discussing their implementation in the 
largest economy in the world.
    Denying the failure of existing carbon policy risks raising 
energy prices without reducing carbon output. U.N. climate 
talks on carbon broke down this week over this simple economic 
fact.
    Extending my analogy with central banking, Members of 
Congress should remember that the National Monetary Commission 
studied central bank functions around the world for 7 years 
before concluding upon the design of the U.S. Federal Reserve 
system.
    Let us take our time now and research existing carbon 
abatement mechanisms before emulating demonstratively failed 
schemes around the world, enriching financial industry interest 
groups at the cost of our economy while continuing to allow 
carbon to grow as a national and global problem.
    Thank you.
    [The prepared statement of Mr. Mason follows:]
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
    Senator Whitehouse. Thank you, Dr. Mason.
    Let me begin with a question prompted by Administrator 
Ruckelshaus' testimony. Mr. Ruckelshaus, you described a number 
of environmental improvements that took place on our watch. You 
mentioned that inherent in all was powerful economic interests 
resisting controls, to use your phrase.
    You said that in all of the cases cited, the solutions to 
the problems did not result in the predicted economic and 
social calamity.
    Each of you has had the firsthand experience of having to 
make decisions that were surrounded by fears and anxieties 
about perhaps dire consequences of your decision. Each of you 
has made that decision, each has seen the consequences as they 
played out in the aftermath.
    My question to each of you, starting with Mr. Ruckelshaus 
whose testimony I think probably foretells his answer, how did 
the worst fears and assumptions of bad outcomes from 
environmental regulations turn out in reality as the rules were 
applied in your own experience? Mr. Ruckelshaus?
    Mr. Ruckelshaus. Let me mention just one example. The 
Congress, in 1970, passed the Clean Air Act which provided that 
in the law itself by 1975, the cars would be 95 percent 
improved in three named pollutants in the law--hydrocarbons, 
carbon monoxide and nitrogen oxide.
    The claim of the automobile companies was that this was 
impossible to do by 1975. I think they probably were right 
about that. It was an overly ambitious goal set by the 
Congress.
    As Administrator, I was authorized to give them a 1-year 
extension from the meeting of those 1975 goals if the facts 
warranted. We had extensive hearings and decided, in the first 
instance, not to grant an extension and in the second instance, 
an extension was granted.
    By 1976, with the use of the catalyst, most of the 
automobile companies were on the way to achieving the standards 
as required by the statute.
    The claims during those hearings and during the passage of 
the laws were that the industry was going to collapse. Ford 
Motor Company predicted they would have to shut down their 
whole company if this law passed.
    There was enough flexibility in the law, enough chance to 
give them the kind of leeway they needed to achieve the 
standards. Once they saw the rule was serious and we were going 
to pursue as vigorously as we could the achievement of the 
requirements under the law in the rule, then they began to 
focus on reducing the cost.
    The motivation of trying to resist the regulation, resist 
the law that was passed by the Congress, changed from one of 
claiming the end was near to one of let us see if we can do 
this and do it in a cost effective way.
    They did do it in a cost effective way and we achieve the 
standards finally. It was later than they expected. There was 
some leeway granted by the Congress after the original law.
    We have almost three times as many cars on the road today 
and the emissions from the automobiles are 95 percent reduced.
    Senator Whitehouse. In my remaining minute, let me ask you 
to fill in and if we have a second round, I will come back and 
finish the question with the others but I am running out of 
time.
    Ms. Whitman. Probably the best example I can give is when 
we were working on increasing the efficiency of air 
conditioners. We were being sued by everyone, including the 
DOE, saying it was absolutely impossible, that this was going 
to kill the industry.
    We went ahead and found one company that said, no, we can 
do this. Carrier Air Conditioning said they could do it. They 
did it and started producing the more highly efficient air 
conditioners. Now everyone has exceeded those rules. We took 
them to 11 percent; they are now talking about 23 percent 
ratings.
    The ingenuity in the American system kicked in. The minute 
they knew this was real, it was going to happen not only did we 
not see a loss in jobs or loss in dollars, we saw this whole 
industry achieve new levels that we did not think were 
possible.
    Senator Whitehouse. With my time expired, let me turn to my 
distinguished Ranking Member, Senator Sessions.
    Senator Sessions. Thank you.
    We certainly have made some great progress in the air in 
America and the water is so much cleaner than it has been. When 
we see situations in China, we are proud of what we have 
accomplished.
    However, I would say CO<INF>2</INF> is a different kettle 
of fish. It is not particulates and NO<INF>x</INF> and 
SO<INF>x</INF>. It is plant food and it is not a pollutant in 
any normal definition of it, although Governor Whitman, I will 
acknowledge the Supreme Court by a 5-4 ruling ruled otherwise 
based on IPCC data.
    Mr. Chairman, I would offer the letter to Gina McCarthy 
from West Virginia Attorney General Patrick Morrissey regarding 
EPA's asserted authority under Section 111(d) of the Clean Air 
Act to regulate CO<INF>2</INF> emissions from existing coal 
fired power plants and a white paper from 17 attorneys general 
and one senior environmental regulator to another State 
regarding the authority of States under Section 111(d) of the 
Clean Air Act to determine standards as applied to individual 
sources.
    Senator Whitehouse. Without objection, those documents will 
be made a part of our record.
    [The referenced information follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Senator Sessions. Thank you.
    The President, on November 14, 2012, said, ``The 
temperature around the globe is increasing faster than was 
predicted even 10 years ago.'' Then on May 29, 2013, he said, 
``We also know that the climate is warming faster than anybody 
anticipated five or 10 years ago.'`
    I want to ask each of our former Administrators if any of 
you agree that is an accurate statement on the climate? If you 
do, raise your hand. Thank you. The record will reflect no one 
raised their hands.
    One of the things Dr. Botkin mentioned was this is 
difficult when we have assertions repeated that are not 
established by the facts. The same is true about hurricanes. If 
you count the number of Category 1, 2, 3, 4 or 5 hurricanes 
each year, this is not a matter of dispute, we don't have more. 
The IPCC acknowledges that.
    Yet we have the President and top officials repeating that 
as a justification to hammer the coal industry and driving up 
costs in our Country.
    Attorney General Strange, I had a question I wanted to ask 
of you. I appreciate your appearance and your fine leadership 
in the State.
    The four EPA Administrators today say we need to act now. 
Would you also say it is important that we act according to the 
law and do you believe EPA's proposed existing power plan 
guidelines are consistent with the law?
    Mr. Strange. That really is why I am here, not to debate 
the science or the policy. That is a matter for the scientists 
and for the members of this committee and members of the U.S. 
Senate.
    My concern is whatever decision EPA makes and whatever 
policy it decides to implement that it follow the law. I think 
they failed to do that in this case. I appreciate your 
introducing for the record the letter from my colleague, 
Patrick Morrissey, the Attorney General of West Virginia which 
goes into great detail on the legal infirmities of this 
proposal as well as the letter from the 17 other AGs, 
bipartisan group of attorneys around the Country who feel the 
same way.
    Our role is to make sure that whatever the EPA comes up 
with that it follows the law, respects the State's role in 
working to achieve the type of environmental regulation the 
Country decides it wants to have. That is the lane I am in, 
that is the oath I took and that is the reason I am here today.
    Senator Sessions. Our staff has done a study on the 
federalism aspects of EPA. The Clean Air Act establishes a 
cooperative federalism between States and EPA. Do you think the 
proposed existing power plan guidelines adhere to the Clean Air 
Act's process?
    Mr. Strange. I do not think so, Senator. In a nutshell, I 
think what the EPA is attempting to do in this case is to 
regulate at the Federal level, removing almost all the 
discretion that would normally reside in the States.
    In my experience, maybe it was your experience as Attorney 
General when you preceded me, regulators like to regulate and 
it is an important role that we attorneys general play to 
ensure that when they decide to regulate, they stay within the 
bounds of their authority.
    Oftentimes, if you are a regulator and see a problem or 
perceived problem, you want to regulate and at least in my 
experience, you naturally try to exert as much authority as you 
think is there and perhaps more. We think that is what is 
occurring in this case.
    That is why it is so important not only to me in Alabama 
but to attorneys general across the Country.
    Senator Whitestone. We will turn now to Senator Boxer for 
questions. Chairman Boxer, I should say in this room.
    Senator Boxer. Thank you so much.
    I am going to go rapid fire.
    Dr. Mason, when you talk you so remind me of the alarmist 
that we heard both in the 1970's and the 1990's over the Clean 
Air Act. Coming from a State that is undergoing a boom in clean 
energy jobs, I am here to say I am going to send you some of 
the stats that Hon. Christine Todd Whitman put out because I 
want to know if you think they are incorrect.
    From 1980 to 2012, the total emissions in the U.S. of six 
common air pollutants dropped by 67 percent, our population 
grew by 38 percent, our energy consumption increased by 27 
percent, and our GDP more than doubled. I checked and this is 
my statistic that jobs increased 88 percent.
    I am going to send that to you for your commentary because 
again, we have always heard this every time there is an 
initiative. It always turns out to be completely wrong. The 
alarmists are wrong.
    I also want to ask our four EPA folks to tell me if they 
agree with this. Senator Sessions and I have a disagreement. He 
is my friend and we respect each other. We have a disagreement 
on carbon. He says this is not a pollutant that hurts you but 
there is an endangerment finding. It was started under George 
W. Bush and completed under Barack Obama.
    Then there as a National Climate Assessment which was 
required by law every 4 years. Republicans voted for that 100-0 
on February 6, 1990. This particular assessment calls out the 
dangers of carbon pollution and says it is going to increase 
ozone, increase asthma, increase hospital admissions, quoting 
directly, ``Climate change is projected to harm human health by 
increasing ground level ozone.''
    They specifically cite more carbon pollution as increasing 
global temperatures, increasing premature deaths and worsened 
ozone particle pollution.
    Is there any one of the four of you who has a problem with 
that analysis? Let the record show they agree with that 
analysis.
    I want to talk to my friend from Alabama and ask you this 
question. I have great respect for your office and your opinion 
but isn't it true that Alabama lost all recent major Clean Air 
Act cases?
    Alabama lost its legal challenge to EPA's CRUS, State air 
pollution rule in the Supreme Court. Alabama lost its legal 
challenge to EPA's mercury and toxic air rule in the D.C. 
Circuit in the White Stallion case. Alabama lost its legal 
challenge to EPA's endangerment finding and light duty vehicle 
GHG tailpipe standards in the case of Coalition for Responsible 
Regulation. Isn't that a fact?
    Mr. Strange. I do not doubt what you are saying, Senator. I 
do not recall.
    Senator Boxer. You do no recall losing those cases?
    Mr. Strange. I do and I think you are right, yes.
    Senator Boxer. I think that is important.
    Let me ask a question to Mr. Thomas.
    I know you have talked about the impacts in your home State 
of Florida that you are already seeing. I had the privilege of 
going in a helicopter over the Miami region. When you see how 
much water is there, it takes your breath away.
    I wonder if you could talk about how local communities in 
the State of Florida are joining together to address the 
growing impacts of climate change. Do many of these local 
actions have bipartisan support?
    Let me ask Mr. Thomas this. I only have 58 seconds left.
    Mr. Thomas. Senator, particularly in the south Florida 
area, Miami area, six counties have basically come together 
specifically to work on adaptation measures dealing with the 
problems they are already facing.
    As I indicated, salt water intrusion, the drainage systems, 
how do they deal with today's problem, an average sea level 
rise of about eight inches which has a significant impact. You 
are talking about areas that both because of their level above 
sea level but also because of the terrain and subsurface, 
basically the limestone and subsurface causes a significant 
issue in that part of the State.
    We see local governments struggling with the issue, 
spending significant amounts of money and my sense is that is 
going to be an expanding issue and an expanding problem, 
particularly in the south Florida area in the near term.
    I met with a group in the Miami area, including scientists 
who participated in the IPCC process. Their concern is what is 
happening today and how it will be exaggerated over the next 10 
years. They are not talking about long term, they are talking 
about 10 years.
    Senator Boxer. Let me close by letting everyone know this. 
When it comes to environment, we have big differences. When it 
comes to preparing, we have come together and in the last WRDA 
bill, I wanted to mention that we have taken steps for our 
coastal States and also the Sacramento issue, Mr. Reilly, that 
you mentioned.
    Senator Whitehouse. Senator Vitter.
    Mr. Botkin. May I may a scientific comment?
    Senator Whitehouse. It is not in order. This is the time 
for Senators to ask questions.
    Senator Vitter, you are recognized.
    Senator Vitter. Thank you, Mr. Chairman.
    As I always am in these discussions, I am frustrated again, 
quite frankly at some of the cartoonist nature of the 
assertions, going after strawmen instead of having a detailed, 
serious discussion. I think Senator Boozman's comment and 
explanation of the 97 percent figure really goes to that.
    Ninety-seven percent believe in this consensus about 
climate change. However, it is defined so broadly that all or 
virtually all the Republican members of this committee would be 
among the 97 percent. I hope we can get beyond going after 
strawmen and having these sorts of cartoonish conversations.
    With that theme of science, real science, real discipline 
in mind, let me start there. Of all of our panelists, who has 
graduate advanced degrees in the natural sciences? Dr. Botkin, 
let me ask you, in my opinion one of these areas with 
cartoonish claims and outlandish claims is about severe weather 
multiplying every day.
    In fact, what is the historical record about the severity 
and frequency overall of hurricanes, tornadoes, droughts and 
floods?
    Mr. Botkin. As you had in past testimony from Roger Pielke, 
Jr., the analysis shows that these have not increased in terms 
of major storms. If that is the specific question, there has 
not been an increase in tornadoes and major storms according to 
his analysis.
    Senator Vitter. I just point that out because that is one 
of the most common rallying cries about this cartoonish debate, 
severe weather.
    Also, let us talk about real science. We have here 
obviously a huge issue which is whatever we do, what is the 
rest of the world doing. These posters just illustrate what 
China is doing but there are other countries that are a major 
factor--India, Brazil and so forth.
    Dr. Botkin, with this in mind, will the EPA's rule, as 
currently constructed, have a significant effect on global 
average temperatures or sea level rise?
    Mr. Botkin. The scientific analyses show that if the United 
States acts alone, it will have a very insignificant effect but 
that does leave open whether this is supposed to be a 
leadership action or a scientific effective but in terms of the 
United States acting alone, it will have a very minor effect.
    Senator Vitter. Thank you.
    Mr. Botkin. May I make a comment about sea level rise?
    Senator Vitter. Go ahead but be very brief. My time is 
limited.
    Mr. Botkin. Most of the comments were about sea level rise. 
It is well known to geologists, oceanographers and 
glaciologists that the sea level has been rising since the end 
of the last ice age, 12,500 years ago. The average estimated 
rate and measured rate has been a foot a century. That is 
natural background.
    It was mentioned specifically by one of the Senators was 
that it has risen ten inches in one place since 1930. Actually, 
that is within that natural background.
    Senator Vitter. Doctor, I do not mean to cut you off but 
this is on my limited time.
    Mr. Botkin. I just wanted to say that is completely 
natural.
    Senator Vitter. Let us go on to the other big impact we can 
measure which is economic impact. Dr. Mason, this is not a 
theoretical discussion. Europe has basically been living this 
in the last ten plus years and is in the process of essentially 
reversing course.
    A headline from The New York Times reads ``Europe Facing 
Economic Pain May Ease Climate Rules''; the Bloomberg News, 
``Coal Returns to German Utilities Replacing Low Cost 
Nuclear''; the Guardian, ``Soaring Energy and Housing Costs 
Force Poorest Homes to Turn to Food Banks''; and the New York 
Times, ``Renewable Energy in Spain Is Taking A Beating.'' What 
should we observe and learn about that European experience?
    Mr. Mason. I think you have to acknowledge that in terms of 
the treatment in this medical analogy, prior carbon policy has 
been the equivalent of medieval blood letting. It has not 
worked, it is not constraining emissions in world markets and 
there are two things you have to notice.
    First of all, there is already a market developed not only 
to argue against taking action with respect to carbon; there is 
a market developed in setting up these financial trading desks 
that trade carbon, that wants to lobby to undertake this 
option. It is a very strong and very large industry right now.
    There are interest groups pushing for this as a solution 
that, in fact, will not work.
    Senator Whitehouse. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    I want to go to the EPA Administrators. Thank you all so 
much for your service over the years.
    I have a chart here of U.S. GDP since the Great Depression 
in 1929. President Johnson signed the first Clean Air Act into 
law in 1963. It was amended in 1970, 1977 and 1990, as 
indicated on the chart.
    I would like a quick answer from each of you. Has GDP, Mr. 
Ruckelshaus, gone up or down since each of these Clean Air Act 
laws?
    Mr. Ruckelshaus. Senator, I am not going to argue with your 
chart. It has gone up.
    Senator Markey. Thank you. Governor?
    Ms. Whitman. I cannot disagree with that. That is a fact.
    Senator Markey. Thank you.
    Mr. Reilly. The Clean Air Act amendments we were 
responsible for in 1990 were followed by ten record setting 
years in GDP growth.
    Senator Markey. Interesting--not a blood letting then, is 
that what you are saying?
    Mr. Reilly. No, I would not say so.
    Senator Markey. You would not say that. Thank you.
    Mr. Thomas.
    Mr. Thomas. I certainly agree with your chart, it has gone 
up.
    Senator Markey. Do you think that finding new facts of 
dealing with climate change can actually create jobs in our 
economy by unleashing innovation in the marketplace to 
accomplish that goal, Mr. Ruckelshaus?
    Mr. Ruckelshaus. There is no question. It will create jobs. 
It will also have some impact on existing employment.
    Ms. Whitman. I look on it as not only will it create new 
jobs in some of the renewable fields and fields we have not 
even talked about, but we have one industry already that is 
producing a lot of jobs and can produce a lot more. That is the 
nuclear energy industry which is a base power which releases 
none of these greenhouse gases or other regulated pollutants 
while producing power.
    Mr. Reilly. The 1990 amendments created an enormous number 
of jobs both in natural gas and also in western clean coal.
    Mr. Thomas. I think without question jobs will be created. 
On the other hand, I think it will impact jobs and I think we 
have a responsibility to focus on how we provide assistance to 
those whose jobs are being impacted.
    Senator Markey. I would like to move to another example 
which is the Regional Greenhouse Gas Initiative across the 
northeast in terms of the impact that has had in reducing 
greenhouse gases and at the same time overlapping with an 
economy across the northeast which has continued to grow over 
those years.
    Since the RGGI was put in place, there has actually been a 
40 percent reduction in greenhouse gases in those States on 
average where it was put in place but in addition, it has 
helped to save consumers money, created jobs, generated over 
$750 million in economic value in the State of Massachusetts 
alone from 2009 to 2013.
    Mr. Chairman, I would like to submit all of that economic 
data for the record.
    Senator Whitehouse. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Governor Whitman, maybe you could talk 
about that issue, about the job creation aspect of this, 
especially since it seems to be a core argument here using 
medieval blood letting terms to describe what the impact is 
since the States in the RGGI have actually seen economic 
growth.
    Ms. Whiteman. I think it is absolutely fair to say that 
obviously there are going to be jobs that will be impacted with 
whatever actions we take. That has always been true. When we 
have an obligation to ensure that we do the best we can for 
those who will be impacted and find other ways of earning a 
living and recognize that this is real and people will get 
hurt.
    One of the things you learn as a Governor, as anybody in a 
position where you have to make decisions, is you cannot make a 
decision that has an equal impact on everyone. Some people will 
not see the same benefits as others and may see a down turn. It 
is your obligation to do what is in the best interest of the 
greatest number and do everything you can to mitigate the down 
side for those who will be negatively impacted.
    I think we have seen that time and again. We have been able 
to do that in this Country and been able to increase jobs.
    Senator Markey. Mr. Thomas, Dr. Botkin has argued for more 
direct observations of climate variables. You mentioned both 
sea level rise and an increase in heavy rainfall in your 
testimony. Sea level rise and rainfall have been measured by 
scientists for decades. They are not theoretical or models.
    What are the impacts of those directly observed changes on 
your own home State, Mr. Thomas?
    Mr. Botkin. Excuse me, Senator.
    Senator Whitehouse. Could you please allow Mr. Thomas to 
answer the question he has been asked?
    Mr. Thomas. Senator, as I indicated to Senator Boxer, 
clearly south Florida particularly is dealing today with sea 
level rise as it impacts both saltwater intrusion on our 
coastal areas, impacts our drinking water, draining systems 
that are critical to the overall well being of many of the 
coastal communities in south Florida.
    Today's sea level rise is indeed an issue in our State just 
as it is in a number of other States.
    Senator Markey. I am the son of a milkman so I know that 
technological change can occur. The invention of refrigerators 
actually made obsolete delivery of milk each morning. It does 
not mean there were more milkmen that were created; it meant 
there was an absence of jobs that were created to revolutionize 
the way in which that industry operated. We have seen that from 
the beginning of time and we have to embrace it here. The job 
creation is obvious.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Inhofe.
    Senator Inhofe. That is pretty good. I enjoyed that.
    First of all, let me mention that we keep talking about the 
Clean Air Act amendments of 1990. I want everyone to know not 
only did I vote for them, but I was an original co-sponsor of 
those.
    They worked. That was dealing with real pollutants--SOx and 
NOx. It was never meant to deal with CO2. I think we all 
understand that. The successes were there. You could actually 
use that as an argument against going into regulating something 
that most of us do not believe is a pollutant, but we will not 
make that argument.
    I think Senator Boozman has pretty much defused the 97 
percent. We are going to hear it over and over again but he has 
pretty well answered that.
    I had a question for the three of you but I am going to 
skip you, Attorney General Strange, because Jeff already asked 
the question. I have to say this, that Scott Pruitt holds you 
in the highest regard among all the attorneys general in the 
United States.
    Dr. Botkin, you are the only scientist on this panel. I 
would like to ask you this. I happened to be in Copenhagen when 
this whole thing broke. Everything was predicated on the 
assumption that IPCC was going to be accurate--they were the 
ones who started this whole thing.
    I was there when Climate Gate broke. We all remember that 
is where they uncovered the IPCC had manipulated reports, 
covered up errors and made their global warming case stronger 
than it was.
    The way that was kind of covered up in our media here, we 
have kind of an alarmist bias in our media here but throughout 
the world, it was not. The UK Telegraph I think is the largest 
printed publication in the UK. It says, ``The Worse Scientific 
Scandal of Our Generation.'' The Financial Times said, ``The 
Stink of Intellectual Corruption Is Overpowering.'' The 
Guardian said, ``It Is No Use Pretending That This Isn't A 
Major Blow.''
    I ask you as a scientist, why do you think there are people 
who still believe that this science was generated? The reason I 
am asking this question is because if you go back and look at 
my website in 2002, you will see I listed not a few but 
hundreds of scientists who disagreed with the IPCC. Your 
comments on that?
    Mr. Botkin. Senator, I have asked myself this question many 
times because what I do is look at the facts and check all the 
facts. I found that the IPCC reports are not consistent and are 
biased. Are you asking me why do so many people believe that?
    Senator Inhofe. That is good.
    Mr. Botkin. I have puzzled about that a great deal. I can 
say that one of my favorite books is by Charles McCabe 
published in 1841.
    Senator Inhofe. We are running out of time.
    Mr. Botkin. I do not think there is a scientific answer to 
why so many people have come to believe this. It has become a 
popular issue. All I try to do is look at the facts. I have 
worked very hard to try to determine the effects of this over 
my career and I feel this data has changed and that it is less 
of an effect and danger than we thought before. I am surprised 
and shocked.
    Senator Vitter. Dr. Mason, you being the only economist on 
this panel, let me ask you a question.
    Years ago when this first started, a lot of us believed it 
was true because that was what was supposed to be believed. It 
happened at that time that I chaired this committee. When I 
found out they were talking about what the cost would be, if 
you remember the Wharton Econometric Survey came out, the MIT 
came out, Charles Rivers came out, and all came to the same 
conclusion on the cost of this. We were talking about the cost 
of cap and trade would be between $300-$400 billion a year.
    First, I would ask if you agreed with that analysis with 
them at that time?
    Mr. Mason. I have not run the job losses particularly, but 
I would not be surprised at all by that.
    Senator Inhofe. That is the one thing that is pretty 
consistent. We have not had a lot of people disagree with that. 
My question would be this. These bills we are talking about, 
the first was the McCain-Lieberman bill in 2003, then in 2005, 
the same thing, the Warner-Lieberman and it went on up to 
Senator Markey, when he was in the House, had a bill, all of 
them were talking about regulating the emissions of entities 
that emitted 25,000 tons or more. The Clean Air Act regulates 
250 tons or more.
    I would ask you as an economist, if it is true that it 
would be between $300-$400 billion a year for the 25,000 tons 
or more, do you have any idea what it would cost the American 
people if they were able to successfully regulate this under 
the Clean Air Act?
    Mr. Mason. Orders of magnitude more.
    Senator Inhofe. That is a good answer.
    Thank you very much.
    Senator Whitehouse. Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Professor Mason, in your testimony, you address disparitive 
goals across States. Arkansas is one of the most difficult 
targets in the Country. You said there will be State level 
impacts that affect jobs and growth. Would you explain how 
these impacts can impact opportunities in States like Arkansas 
and what that will mean for consumers?
    Mr. Mason. Very simply, to the extent that consumers in 
these States derive energy from plants in those States, again, 
those consumers will pay more for their electricity. This is 
where things get wonky because you will have cross State 
effects.
    Will Arkansas be able to, for instance, buy emissions from 
other States to satisfy their emissions? How are we going to 
control that? What can they buy? Can they buy permits or 
offsets internationally from Hungary which defrauded investors 
leading to this market shutdown I cited or other Third World 
countries that have been known not to even bother to check 
validity of the permits they are selling on markets leading to 
this fraud and international problems?
    We need to deal with these details. Until we actually sit 
down and look at these and look at the job losses that are very 
real--the Fed does this at every meeting when they talk about 
raising rates. They look at job losses and look at economic 
output.
    I think that we need to look at this with each and every 
increase in energy cost. Just waving your hands and saying, 
that will be fine, is another story because we are getting to a 
level of policy implementation that is orders of magnitude 
greater than anything we have done before.
    To me from my perspective on financial crises, they arise 
in part because of problems in the market but also scale and 
magnitude relative to the economic system. We have had lots of 
little mini securitization crises since 1990. None affected the 
economy until we had it happen with mortgages, a big enough 
product to throw us into recession.
    We can do this and we can put the economy at risk but I 
think we need to think about this real hard before just diving 
in. This is different.
    Senator Boozman. That is why we have a Congress and 
congressional hearings, to go through all that theoretically 
and make sure we do it not in haste but get all the intended 
consequences out on the table.
    You mentioned it is like gravity that in order to make 
something not be used, you have to raise the price or that is a 
method of doing it. You mentioned the $30 figure. What would 
that do to the cost of utilities?
    Mr. Mason. RGGI right now is at about $5, California is at 
about $11. It is interesting and those might not have pushed 
back economic growth but they are not pricing carbon either. 
They are just adding to the cost of energy with no upside 
benefit in terms of carbon.
    Thirty dollars is definitely going to raise prices further. 
We have seen 45 percent in the northeast cited today. I would 
expect prices would go up by orders of magnitude greater than 
that.
    Let me just say that there has been a lot of talk today 
about leadership in terms of carbon policy. Leadership is not 
just grabbing this failed system out of the EU or this 
ineffective system out of RGGI or California and plopping it 
down nationwide.
    Leadership is really thinking more deeply about the 
implementation of carbon policy and coming up with something 
better than the rest of the world has put together so far, 
implementing it and then having the rest of the world follow.
    That is why I cited the National Monetary Commission with 
respect to the Federal Reserve. We did that. We have the best 
central bank in the world. Like or hate the details of it, we 
still lead in that throughout the world. I think we owe to our 
citizens to put together a very thoughtful approach, to put 
together a meaningful approach to carbon that can actually help 
the world while also pricing an economic externality that is 
very real.
    Senator Boozman. Thank you very much.
    Dr. Botkin, you would be one of the 97 percent that is 
talked about and certainly you feel like man is contributing 
and this and that but certainly you are not one that feels like 
the models are acceptable. I suspect you have many of your 
cohorts in the same camp.
    Mr. Botkin. I think the key thing here is that science is 
not a rule by majority method. That is the important thing. It 
is discovery.
    I would like to quote Jonas Saulk, the inventor of the 
polio vaccine. He said, ``I get into dialog with nature and put 
the question to nature, not to my colleagues because that is 
from whence the answer must come.'` That is what I do. I always 
look at the data.
    Also, Richard Feynman, one of the great 20th Century 
physicists, said ``Science is the belief in the ignorance of 
experts.'` To keep saying it is a majority is not a scientific 
statement and is not correct.
    I have spent 50 years working on climate change in a very 
constructive way. What I can tell you is that since about 1990, 
the data has started to move in the other direction away from 
an important effect by human beings. That is just what the 
facts show.
    Senator Boozman. Thank you very much.
    My concern is certainly we need to examine the increased 
risk of this, but I can tell you there is tremendous increased 
risk for the men and women sitting back there and the hard 
working people of Arkansas if we are talking about a 45 percent 
or much greater probably in our case increase in utility 
prices.
    As far as jobs, we talk a lot about income disparity in 
this Country, what does that do to working moms, single moms 
and what does that do to people on fixed incomes?
    Again, thank you, Mr. Chair.
    Senator Whitehouse. Thank you very much, Senator Boozman.
    That will conclude the questioning. Let me just say some 
final thanks to our witnesses who are here. I appreciate 
particularly the efforts of the former Administrators. I would 
ask if Mr. Reilly and Mr. Thomas would answer my question for 
the record.
    The record will be kept open for an additional 2 weeks for 
anyone who wishes to add material to the record.
    I will ask unanimous consent to put in a review of the 
investigations that were prompted by what is called Climate 
Gate but I contend is more accurately called Climate Gate Gape. 
In my view, the scandal was a phony scandal that was whipped up 
at the expense of a lot of scientific work that was then 
reviewed I think by six different authorities, including 
American investigators, independent investigators, university 
investigators and British investigators, every one of which 
gave a full clean bill of health to the science.
    I think that needs to be a part of the record if members 
are going to bring up so-called Climate Gate.
    [The referenced information was not receive at time of 
print.]
    Senator Whitehouse. There has been some reference to the 
projections by the Chamber of Commerce as to what this proposed 
EPA regulation might cost. Some of our colleagues have leapt to 
cite that report but I think it is important for the hearing 
that we also include the Washington Post analysis of their 
claims which earned four Pinocchio's.
    Depending on how far you get from the truth, you get more 
Pinocchio's relating back to the story of Pinocchio, the wooden 
doll, whose nose would grow when he was not being truthful. I 
will include the Washington Post four Pinocchio finding about 
that.
    There is also an organization named PolitiFact which 
analyzes claims made, the political debate and tries to do a 
very neutral analysis of their accuracy. PolitiFact ruled a 
false for that report. I think in the interest of fairness, 
those should be admitted.
    I will ask unanimous consent that those two documents be 
admitted.
    [The referenced information was not receive at time of 
print.]
    Senator Sessions. Mr. Chairman.
    Senator Whitehouse. Senator Sessions.
    Senator Sessions. Just to wrap up, I thank the panel for 
your testimony. This is an important issue. I believe Dr. 
Botkin is correct in saying that actual empirical data is not 
confirming the projections we have seen so far and a host of 
other areas. I will be submitting some documents to that 
effect.
    I think it is appropriate for Congress to ask questions. 
Also, I would just say it is unacceptable that scientists like 
Dr. Botkin and others are being adversely treated as a result 
of their statements and scientific research that sometimes 
contradicts the powers that be.
    Thank you.
    Senator Whitehouse. You are very welcome. It is always a 
pleasure to work with my Ranking Member. However much we may 
disagree on things, he is a very courteous colleague and we 
always work well together.
    I think this was not a hearing on the science. It was a 
hearing with the experience of previous Administrators. If we 
were to do a hearing on the science, then I think we would be 
adding scientists from NOAA, NASA, and the scientists who back 
our United States defense establishment and a great 
establishment of scientists, every major scientific 
organization in the Country.
    Perhaps Dr. Botkin is right and they are all wrong but I am 
not sure that would be the prudent course for our Country.
    Thank you all very much.
    We are adjourned.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                 [all]
</pre></body></html>
